<html>
<title> - RESTORING THE PUBLIC TRUST: A REVIEW OF THE FEDERAL PENSION FORFEITURE ACT</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
RESTORING THE PUBLIC TRUST: A REVIEW OF THE FEDERAL PENSION FORFEITURE 
                                  ACT

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 1, 2006

                               __________

                           Serial No. 109-118

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
26-073                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
------ ------

                      David Marin, Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 1, 2006.................................     1
Statement of:
    Claybrook, Joan, president, Public Citizen; and Chellie 
      Pingree, president and chief executive officer, Common 
      Cause......................................................    27
        Claybrook, Joan..........................................    27
        Pingree, Chellie.........................................   113
    Springer, Linda M., Director, Office of Personnel Management.    13
Letters, statements, etc., submitted for the record by:
    Claybrook, Joan, president, Public Citizen:
        Information concerning a Matter of Trust.................    29
        Prepared statement of....................................   106
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............   150
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of...................     3
    Pingree, Chellie, president and chief executive officer, 
      Common Cause, prepared statement of........................   116
    Platts, Hon. Todd Russell, a Representative in Congress from 
      the State of Pennsylvania, prepared statement of...........   149
    Porter, Hon. Jon C., a Representative in Congress from the 
      State of Nevada, prepared statement of.....................   154
    Springer, Linda M., Director, Office of Personnel Management, 
      prepared statement of......................................    16
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................     8


RESTORING THE PUBLIC TRUST: A REVIEW OF THE FEDERAL PENSION FORFEITURE 
                                  ACT

                              ----------                              


                      WEDNESDAY, FEBRUARY 1, 2006

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:18 a.m., in 
room 2154, Rayburn House Office Building, Hon. Tom Davis 
(chairman of the committee) presiding.
    Present: Representatives Tom Davis, Shays, Souder, Platts, 
McHenry, Waxman, Maloney, Clay, Watson, Van Hollen, and Norton.
    Also Present: Representative Kirk.
    Staff present: David Marin, staff director; Keith Ausbrook, 
chief counsel; Ellen Brown, legislative director and senior 
policy counsel; Mason Alinger, deputy legislative director; Amy 
Laudeman, special assistant; Jack Callender, Howie Denis, and 
Jim Moore, counsels; Robert Borden, counsel/parliamentarian; 
Rob White, press secretary; Drew Crockett, deputy director of 
communications; John Brosnan, GAO detailee; Teresa Austin, 
chief clerk; Sarah D'Orsie, deputy clerk; Allyson Blandford, 
office manager; Leneal Scott and JR Deng, computer systems 
managers; Andrew James and Michael Galindo, staff assistants; 
Phil Barnett, minority staff director/chief counsel; Kristin 
Amerling, minority general counsel; Karen Lightfoot, minority 
communications director/senior policy advisor; Kim Trinca, 
minority counsel; Richard Butcher and Mark Stephenson, minority 
professional staff members; Earley Green, minority chief clerk; 
and Jean Gosa, minority assistant clerk.
    Chairman Tom Davis. The committee will come to order.
    We meet today to discuss legislation intended to restore 
public trust in the Federal Government. The Federal Pension 
Forfeiture Act provides an important deterrent by denying 
Federal retirement benefits to Federal policymakers convicted 
of accepting bribes, defrauding the Federal Government, 
embezzling Federal funds, or falsifying Federal documents.
    The public is rightly concerned about how Government 
officials interact with the people who get paid to influence 
decisions. This isn't anything new. Throughout the Nation's 
history, we have regularly experienced cycles of scandal and 
reform. The American people do not care about partisanship and 
pointing fingers. They want to know that their Government is 
working honestly and openly.
    The Federal Pension Forfeiture Act will add more teeth to 
the penalties for mixing personal gain with Federal policy. A 
Federal pension is a sweet deal. One reason it is sweet is to 
make Federal employees less susceptible to pressure from 
outside groups.
    Under this bill, if you commit a felony that undermines the 
public trust, you forfeit your Federal pension. American 
taxpayers should not be forced to support a person who has 
violated the public trust. It is a harsh penalty, but so is the 
damage done by even one case of undue influence.
    Over the last few years, and particularly this Congress, 
several Members have offered similar bills. This Congress, 
several bills have been introduced that share the same basic 
principle: Commit a felony related to your official duties, you 
lose the biggest perk.
    Many of us held town hall meetings over the past few weeks 
in our districts. People are angry and disillusioned. The bad 
acts of a few have tainted all of us who serve in public 
office. It is time to begin restoring the public's faith in 
Government.
    We welcome three distinguished witnesses who have excellent 
credentials in working to promote and create trustworthy 
Government. First, we will hear from the Honorable Linda 
Springer, Director of the Office of Personnel Management. Then 
we will hear from Chellie Pingree, who is the president and 
chief executive officer of Common Cause, and Joan Claybrook, 
president of Public Citizen.
    We want to thank everybody for joining us, and we look 
forward to their insights on this proposal.
    [The prepared statement of Chairman Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T6073.001
    
    [GRAPHIC] [TIFF OMITTED] T6073.002
    
    [GRAPHIC] [TIFF OMITTED] T6073.003
    
    Chairman Tom Davis. I am going to now recognize the 
distinguished ranking member, Mr. Waxman.
    Mr. Waxman. Mr. Chairman, I am pleased that you are holding 
this hearing. The indictments and scandals now gripping 
Washington have shown that our laws and regulations are not 
working to promote honesty and integrity in Government.
    Nine years ago, as this committee was launching its ill-
fated campaign finance investigation, I wrote an op-ed in the 
New York Times that called for a comprehensive approach to 
curbing the influence of money and special interests in 
Washington. I wrote that ``the real scandal is what's legal and 
common.'' And I said that ``our goal should be to understand 
how the process functions at every step, to expose its flaws 
and to get rid of the loopholes. This approach may not be 
popular in Congress but leaders of both parties must realize 
that the situation must change.''
    I still believe this today, and I feel confident that under 
Chairman Davis' leadership the committee can begin to fulfill 
its fundamental responsibility: to ensure our Nation has honest 
leadership and open Government.
    In the years since I wrote the op-ed, Americans have 
witnessed a rising stream of abuses in Congress and across the 
Federal Government. There have been allegations of bribes on 
the House floor; criminal indictments of high-ranking 
officials, including a Congressman and the Vice President's 
most trusted adviser; rigged Federal contracts; K Street 
shakedowns; and a burgeoning corruption scandal. Our committee 
has an essential role to play in restoring public confidence in 
Government.
    We are the committee with the authority to reform the 
ethics laws that govern the Federal Government. We are the 
committee with the authority to restore the principles of open 
Government. And we are the committee with the authority to 
close the revolving door between Federal agencies and the 
private sector, to ban secret meetings between Government 
officials and lobbyists, and to halt procurement abuses.
    To meet these challenges, we must do two things: first, we 
must use our broad investigative power to investigate abuses 
and ensure accountability; and, second, we must take a 
comprehensive approach to reform. The legislation we are 
discussing today denying pensions to political appointees 
convicted of felonies may win broad support, but it won't do 
much to clean up Washington. In fact, most political appointees 
don't even serve long enough for their pensions to vest.
    We need an approach that stops political appointees from 
giving lobbyists and special interests secret access to the 
halls of Government, that halts or at least slows down the 
revolving door that spins between the White House and K Street, 
and that assures that the Government's business is conducted in 
the sunshine. We need to restore honesty in Federal 
contracting, to stop cronyism, and to rebuild the integrity of 
our science-based agencies. And we must encourage 
whistleblowers to come forward and ban the insidious use of 
covert propaganda.
    This is a large agenda, but it is absolutely vital. Corrupt 
practices have taken a deep hold in Washington, and it will 
take comprehensive reforms to restore honesty and 
accountability.
    The chairman and I met earlier this week to discuss these 
issues. We did not agree on every detail, but we did agree on 
two fundamental points: reform should be comprehensive and far-
reaching, and now is the time to act. And we pledged to work 
together to see if a true bipartisanship can be achieved.
    Mr. Chairman, I want to thank you again for holding this 
hearing, and I look forward to working with you on these 
matters.
    [The prepared statement of Hon. Henry A. Waxman follows:]

    [GRAPHIC] [TIFF OMITTED] T6073.004
    
    [GRAPHIC] [TIFF OMITTED] T6073.005
    
    [GRAPHIC] [TIFF OMITTED] T6073.006
    
    [GRAPHIC] [TIFF OMITTED] T6073.007
    
    Chairman Tom Davis. Thank you, Mr. Waxman. Let me say we 
did agree there needs to be a comprehensive approach, and this 
is just a small piece, and hopefully we can. Unfortunately, we 
may not have jurisdiction over everything we would like to do, 
but we have a lot of jurisdiction, and let's try to use it. We 
have a window of opportunity, and hopefully we can work 
together on these issues.
    Any other Members wish to make statements?
    Mr. Shays. Thank you, Mr. Chairman.
    Mr. Chairman, one, thank you for holding this hearing. 
Thank you for working with Mr. Waxman during the past year and 
a half. It has been very important that we work together to 
deal with this issue, and admittedly, it seems like a small 
part of what is truly a very big problem. But after having 20 
community meetings in my district, this issue right here is a 
no-brainer. And after having 20 community meetings in my 
district, the biggest message I got was that they want us to 
act, as we should, as an independent branch of Government and 
not as a parliament that somehow is closely tied with this 
administration.
    The administration has its sole and complete 
responsibilities. We have our sole and complete 
responsibilities. And I am grateful we are dealing with this 
issue, and I hope that we will be dealing with a number of 
other issues in the weeks and months to come.
    Chairman Tom Davis. Thank you.
    Mr. Souder.
    Mr. Souder. Thank you. We are at another critical 
crossroads in America, and based on what we have seen in some 
of our fellow Members of Congress, including some in our own 
party's leadership, we need to really--we cannot ignore the 
present crisis. We need to move ahead. Quite frankly, we should 
have moved last fall. Some of those proposals were blocked 
inside of our own leadership, including one applying to 
congressional pensions by Congressman Shadegg. But I am glad to 
see that we are starting right out this year in a first hearing 
with this proposal.
    Mr. Chairman, I applaud your efforts to bring some changes 
to Government in our first week back. As everyone knows, we 
have lately been faced with corruption, malfeasance, and abuse 
of the public trust. It is high time that public officials are 
held accountable for their actions. We cannot allow individuals 
to line their pockets by taking advantage of their position in 
Government. I believe the Federal Pension Forfeiture Act sends 
a message to any would-be lawmaker that your punishment will be 
more than a jail sentence. It will impact the rest of your 
life. We must root out corruption wherever it may be found.
    I strongly support Chairman Davis' bill. The bill, as it 
has been drafted, covers only Members of Congress, 
congressional staff, and political appointees in the executive 
branch. As we move forward, I believe this bill should be 
expanded to cover all Federal employees. The most important 
part is for the elected officials and our appointees to be held 
accountable, and I understand that. And I realize that the 
high-profile nature of recent scandals make legislation dealing 
specifically with those scandals a very immediate priority. But 
I also believe that we need to take this opportunity to make 
complete reform of Government as well as send a message to all 
Federal employees that corruption will not be tolerated at any 
level of Government.
    In the late 1990's, a theft ring involving collaboration 
between outside contractors and the Department of Education 
employees operated for at least 3 years, stealing more than 
$300,000 worth of electronic equipment--computers, televisions, 
VCRs, etc.--and collecting more than $700,000 in false overtime 
pay. The scheme involved a Department of Education employee 
charged with overseeing an outside contract. The employee 
ordered equipment through the contract paid for by the 
Education Department and had it delivered by a complicit 
contract employee to her house or the homes of friends and 
relatives. The complicit contract employees also did personal 
errands for her, such as driving to Baltimore to bring crab 
cakes for her to eat lunch in Washington. In return, she signed 
off on false weekend and holiday hours that they never worked, 
paid for by the Department of Education. Eleven individuals, 
including four Education Department employees, have been 
charged in a 19-count indictment.
    Another theft ring was exposed in 2000, in which $1.9 
million in Federal impact aid funds intended for two school 
districts in South Dakota were fraudulently wired to several 
bank accounts in Maryland. The funds were used to buy $135,000 
worth of real estate, a $50,000 Lincoln Navigator, and a 
$47,000 Cadillac Escalade. This theft was only uncovered when a 
car salesman alerted the FBI after thieves tried to use false 
credit information to purchase a Corvette.
    These instances show that non-elected and the supposedly 
non-political employees also abuse the public trust. As much as 
we should be concerned about Members, staff, and political 
appointees abusing the public trust, we should also punish 
rank-and-file bureaucrats who line their pockets with taxpayer 
money. They are also abusing the public trust, albeit it not in 
the high-profile manner that gets flashed across the news. That 
said, I applaud the chairman for his leadership and fast action 
on this legislation. First we must clean our own house. We must 
clean our own party, and we need to be aggressive in this, or 
the public will do it for us. They are angry. They are 
justifiably angry, and this important piece of legislation must 
be moved immediately.
    Chairman Tom Davis. Thank you very much, Mr. Souder.
    Members will have 7 days to submit opening statements.
    We are now going to hear from our first witness, the 
Honorable Linda Springer, the Director of the Office of 
Personnel Management. Linda, thank you for being here today. 
You know it is our policy we swear you in before your 
testimony, so if you would rise and raise your right hand.
    [Witness sworn.]
    Chairman Tom Davis. Thank you. Go ahead and proceed.

 STATEMENT OF LINDA M. SPRINGER, DIRECTOR, OFFICE OF PERSONNEL 
                           MANAGEMENT

    Ms. Springer. Mr. Chairman and members of the committee, I 
am pleased to be here today to discuss the Federal Pension 
Forfeiture Act. The bill would expand the list of offenses in 
current law that trigger a loss of Federal retirement rights. 
It would add to the current list of violations a wide range of 
offenses, from accepting a bribe to making false statements on 
a Federal benefit application. The expanded list would apply to 
violations committed while in office, if punishable by 
imprisonment for more than 1 year, by a Member of Congress, a 
congressional employee, or a Presidential appointee. As 
drafted, it would apply to a number of clerical and 
administrative employees at very modest salary levels as well 
as to individuals occupying positions at the highest levels of 
Government. The administration is supportive of the concepts 
outlined in this draft bill and looks forward to working with 
Congress on the details of the legislation.
    With one exception, under both current law and the bill's 
expanded list of offenses, survivor annuities for the widow or 
widower and children of an offender are barred. Payment of 
spousal benefits is permitted only in forfeiture cases when the 
Attorney General determines that the spouse cooperated with 
Federal authorities in the conduct of a criminal investigation 
and subsequent prosecution of the individual which resulted in 
such forfeiture. This exception would be applicable to the 
offenses that would be added under this act.
    The Office of Personnel Management wholeheartedly endorses 
merit principles, with a strong emphasis on honesty and 
integrity in Government service. We would like to take this 
opportunity to briefly discuss the history of the forfeiture 
provisions.
    The Hiss Act, approved in 1954, contained a list of job-
related Federal felonies, the conviction of which would bar 
retirement benefits that would be payable to Federal employees 
and their families. Most of the convictions under which 
annuities were denied were for violations of postal law and 
other felony convictions that did not involve national 
security.
    Controversy over the Hiss Act arose in cases where the 
courts had imposed minimal penalties, such as suspended 
sentences, small fines, or probation, yet the offenders and 
their families suffered the additional penalty of losing all 
annuity benefits, sometimes based on decades of service. In 
some cases, individuals were re-employed by the Federal 
Government subsequent to their convictions and were denied 
annuity benefits based on that employment as well. Due to these 
effects and other concerns, Congress made major changes in the 
Hiss Act in 1961. The amendments strengthened the provisions 
dealing with national security offenses and eliminated 
provisions applicable to non-security offenses. The amendments 
also provided for retroactive annuity benefits for individuals 
who had lost them based on the commission of offenses unrelated 
to national security.
    Now, the bill being considered today, while expanding the 
types of violations that would result in forfeiture of annuity, 
would apply only if the offense is punishable by imprisonment 
for more than 1 year. And that is punishable, whether the 
sentence was for that amount or not. Even if the actual 
sentence imposed was suspended or there was probation, the 
annuity would be forfeited.
    Under certain circumstances, all of the offenses listed in 
the bill may be punished by imprisonment for more than 1 year.
    In 1972, the U.S. District Court for the District of 
Columbia forbade application of the forfeiture law to the very 
individual, Mr. Hiss, whose malfeasance led to its passage. 
This bill would apply to acts committed after enactment. And by 
so providing, the effective date provision avoids that problem.
    Under the Federal Pension Forfeiture Act, the functions of 
the Office of Personnel Management would be limited. As with 
any other organization administering a covered pension system, 
OPM would be responsible for ensuring that the act is applied 
in accordance with its provisions, and that is something we are 
able to do. It would, in effect, be an expansion of what we do 
under existing regulations applicable to offenses upon which 
annuity forfeiture can be based, and under those circumstances, 
obviously, OPM affords the individual full due process, 
including the right to an evidentiary hearing before an 
administrative law judge.
    So, to summarize, OPM is testifying in two dimensions here: 
one, that, yes, we can administer the law should it be enacted; 
and, second, on behalf of the administration that we are 
supportive of the proposed bill. So I hope that is helpful 
information, and I would be glad to take your questions.
    [The prepared statement of Ms. Springer follows:]

    [GRAPHIC] [TIFF OMITTED] T6073.008
    
    [GRAPHIC] [TIFF OMITTED] T6073.009
    
    [GRAPHIC] [TIFF OMITTED] T6073.010
    
    [GRAPHIC] [TIFF OMITTED] T6073.011
    
    Chairman Tom Davis. Thank you very much. I am going to 
start the questioning with Mr. Waxman, who is going to have to 
leave the hearing to go to a Democratic conference, which 
accounts for some of the Members not being here. He will ask 
his questions first, go there and vote, and then try to get 
back.
    Mr. Waxman.
    Mr. Waxman. Thank you very much, Mr. Chairman. There is a 
vote going on in the Democratic Caucus, and there will be a 
second ballot, so I am going to have to leave in a minute.
    Ms. Springer, as I mentioned in my opening statement, we 
have witnessed in the past few years a series of serious 
incidents involving conflicts of interest, lobbying abuses, and 
public corruption. Some of these episodes involved Congress 
itself, Members of Congress, and it is clear that we must clean 
our own house on Capitol Hill.
    Yet equally serious and disturbing, we have seen a number 
of incidents at the executive branch of Government: the 
indictment of the Vice President's chief of staff, his actions 
relating to outing a CIA agent, fraud and other abuses in Iraq 
reconstruction contracts, a top senior HHS official negotiating 
future employment while working on major health care changes, 
politically connected individuals appointed to senior positions 
with little or no relevant experience. It was disappointing to 
me that the President barely mentioned these issues in his 
address last night.
    The first step, it seems to me, is to recognize the problem 
that exists. So my first question for you is: Does the 
administration believe that there are problems concerning the 
ethical conduct of the executive branch? And what is the 
administration proposing to do to clean up the executive 
branch?
    Ms. Springer. Well, I think that the first step, as it 
relates to OPM and within our purview, is to work with you on 
things like this bill. For our part in the administration, 
which is the oversight of the Federal civilian workforce, we 
are very concerned that high ethical standards and standards of 
integrity are met. Certainly as a political appointee, I have 
to hold to those standards, but those are things that should 
apply to everyone.
    This particular act is one that, as I said, we have a 
responsibility for administering as well as supporting, and the 
administration does support it. I would view this as just one 
piece. As you have noted, there is a need for a more 
comprehensive approach, and I think that we would be willing to 
work with you and the chairman and the committee on that.
    Mr. Waxman. I also think there ought to be a comprehensive 
approach. This issue alone, taking away pensions, is, I do not 
believe, going to solve the problem. I don't think you believe 
that either. We have to do more. Isn't that right?
    Ms. Springer. You know, one could question the deterrent 
value, if you will, and I think that is part of what you may be 
suggesting. But, clearly, it is an important penalty. Beyond 
just the pension, there are other things that would flow from 
this, for example, elimination of health benefits; the FEHB 
benefits would be forfeited as well, as a derivative of this. 
So it is pretty far-reaching as a penalty. Whether it has 
deterrent value would be a question.
    Mr. Waxman. Well, one major means of shedding light on the 
access of special interests is to require meaningful disclosure 
of lobbying contacts. Current law requires self-reporting by 
the lobbyists, and there is no requirement that specific 
contacts or the subject matter of the meetings be disclosed. As 
a result, there has been little accountability in executive 
branch lobbying.
    For example, the White House has refused to disclose 
information about Mr. Abramoff's contacts with the White House 
or the subjects on which he lobbied the White House officials. 
We even had the Vice President of the United States chair a 
task force on energy, and he went to court, even to the U.S. 
Supreme Court, so he would not have to disclose who came in and 
lobbied him.
    Does the administration support strengthening lobbying 
disclosure laws such that a reporting must include a 
description of the subject matter and the Government official 
contacted or such that the executive branch officials have a 
duty to disclose as well as the lobbyists?
    Ms. Springer. I have not been a part of any administration 
deliberations on that topic, so I am not in a position to 
comment on that.
    Mr. Waxman. Does the administration have a proposal for 
strengthening lobbying disclosure laws?
    Ms. Springer. That does not fall within the purview of my 
OPM responsibility, so I would not be able to answer that for 
you.
    Mr. Waxman. Another area where reform is necessary involves 
the revolving door between the executive branch and lobbyists 
and special interests, and a striking example of an existing 
loophole in these revolving door rules is Tom Scully. He is the 
former head of the Center for Medicare and Medicaid Services 
who negotiated a job with firms representing pharmaceutical 
interests at the same time he was leading the administration's 
efforts to develop the Medicare Prescription Drug Act.
    Does the administration believe that it is necessary to 
take steps to tighten the revolving door?
    Ms. Springer. I don't know about the Scully case, you know, 
the details, and I couldn't comment there. But I do know that 
in my own case, because I was just a year ago planning to leave 
another position I held in the administration, that I was held 
to some pretty high level of scrutiny and standard of any kind 
of contact. And the way I interpreted it, I decided not to do 
any kind of contact with potential future employers until I 
left entirely and severed.
    So I think that, by and large, most individuals are able to 
function with integrity under the current standards. You know, 
there may be some outliers here and there, but I think, by and 
large, it works.
    Mr. Waxman. One of the main means of deterring and rooting 
out Government abuse is to ensure appropriate public access to 
public information. Unfortunately, the Bush administration has 
systematically undermined our laws that promote sunshine in 
Government, so we are facing a situation where there are deep-
rooted ethical problems with little accountability. I believe 
it is time to take comprehensive action. I hope we can move 
forward expeditiously with a package that includes 
strengthening lobbying disclosure, closing these revolving 
doors, restoring open Government, addressing the widespread 
waste, fraud, and abuse. We have witnesses in Federal 
contracting in recent years, ensuring political appointees for 
positions of public safety have qualifications other than 
simply being politically well connected, and preventing 
political interference in science-based policymaking, 
protecting whistleblowers who shine light on Government abuses, 
and preventing the use of taxpayer dollars for political 
propaganda.
    These are the positions that I have taken, and I have 
introduced legislation on each one of those, and I would urge 
the administration to support such a comprehensive reform so 
that we can address public corruption at its very roots.
    Thank you very much, Mr. Chairman.
    Chairman Tom Davis. Mr. Waxman, thank you very much. I look 
forward to working with you on a number of these issues.
    Let me ask you, Ms. Springer, if an individual's retirement 
benefits are forfeited, what happens to the health benefits and 
life insurance coverage?
    Ms. Springer. They are generally, by and large, also 
forfeited. There are a few small exceptions. There are 
opportunities for the Government equivalent of COBRA to kick 
in. But, in effect, they are forfeited, by and large.
    Chairman Tom Davis. This is not a cure-all, obviously, for 
public corruption, but you would hope that somebody in a 
decisionmaking mode, when they are looking at perhaps breaking 
the law, understands the downside just from going to jail, that 
they jeopardize their family and everything else. That is 
really the purpose of doing this.
    We have tried to tailor--there are a number of pieces of 
legislation that are looking at different aspects of what 
crimes would apply and at what level of Civil Service this 
applies to. It obviously applies to Members of Congress and 
staffs, some who are here apply to Schedule Cs in the case of 
my bill, some of them go all the way down and across the 
bureaucracy. Does OPM have any thoughts on where it ought to 
apply at this point, or you are just more concerned about the 
implementation?
    Ms. Springer. Well, our focus certainly is on 
implementation, but as we have reviewed this bill, we think it 
certainly goes to a level that includes public officials that I 
think the American citizens have a direct line to elected 
officials and to political appointees. So we think that there 
is a special standard, a high standard to which this group that 
you have included in your bill need to adhere, and that there 
is a special relationship with the American public that we need 
to be the tone setters, if you will. So I think that your group 
is very appropriate.
    Chairman Tom Davis. You know, the crimes right now, there 
are already some crimes that cover Federal workers, mostly in 
the espionage-sabotage-treason route, as you noted before. This 
takes it a step further.
    Under existing law, which I think now is tailored to 
treason and those issues--sabotage--how many cases of pension 
forfeiture have there been?
    Ms. Springer. There have been four cases in the past 35 or 
so years since the last major change to that Hiss Act, and that 
is what we are operating under currently.
    In one of those cases, the spouse was found to have 
cooperated to the satisfaction of the Justice authorities, and 
the pension was restored to the spouse at its reduced level 
under the normal formula. But in the other three cases, it was 
a complete forfeiture. Certain people availed themselves of the 
appeal right, but they did not prevail. So four cases.
    Chairman Tom Davis. Under the legislation as we have it, if 
the spouse were to cooperate with the government, the pension 
then could be saved, I would gather.
    Ms. Springer. It could be, yes. There would be a 
determination made by the Attorney General, the Justice 
Department, that would determine that.
    Chairman Tom Davis. If nothing else, it is a great 
prosecutorial tool when you are sitting there trying to break a 
corruption ring, you have somebody who has obviously been 
caught with their hand in the cookie jar, but their pension is 
at stake.
    Ms. Springer. I think that is true.
    Chairman Tom Davis. Their family is at stake. They want to 
cut their losses, or a spouse wants to--look, what is going to 
happen if my husband goes away to jail, and this way we--I 
mean, it just seems to me from a prosecutorial point of view, 
this is a great way to break the logjam sometimes.
    Ms. Springer. I think that is very true. I also think that 
to have the fullest effect will require OPM and other officials 
and organizations to make this known to the covered population, 
as opposed to finding out after the fact. But I think making 
this known will just add to its strength.
    Chairman Tom Davis. OK. Thank you very much.
    Mr. Shays.
    Mr. Shays. Thank you. I think this is a pretty 
straightforward issue, but I look at it on two sides of the 
equation. One is I don't think someone deserves a pension if 
they have committed fraud and have been found guilty. The other 
side of the equation would be does this represent in any way a 
deterrent to fraud, and I am not sure it does. I am just 
curious to know if there have been any studies that you have 
done, your agency has done that would enlighten us on this 
issue?
    Ms. Springer. I am sorry. Enlighten as to?
    Mr. Shays. Whether taking away someone's pension is a 
deterrent----
    Ms. Springer. Oh, a deterrent, yes. I am sorry. I have not 
seen any studies to that effect in the course of our review 
here. Again, I think to the extent that the bill is known and 
its penalties are known--there are very few people, for 
example, today who are as familiar with the Hiss Act because it 
was a very narrow scope. But in this case, making this known I 
think could have some effect, but if you think about it, these 
are acts that are already subject to some pretty severe 
criminal penalties. So this would just be one added factor.
    Chairman Tom Davis. Would the gentleman yield?
    Mr. Shays. Yes.
    Chairman Tom Davis. One other thing is from a prosecutorial 
point of view, having that tool with the prosecutor to hang 
that over. To get somebody either to talk or to compromise or 
get their spouse I think could be helpful sometimes in 
breaking--when you have a conspiracy or something like that.
    Mr. Shays. Thank you.
    Let me just ask, in terms of when employees come into the 
Federal Government, are they given--I mean, obviously they know 
fraud is wrong, but is there a specific course or orientation 
that deals with fraud and would in this case let them know--I 
mean, I would think conceptually it would wake them up to say, 
you know, if you have committed fraud and you are found guilty, 
you would lose your pension and you could have many years. I 
would think that would also have an impact. But do we have 
courses on ethics that are required or are they voluntary?
    Ms. Springer. There are several ways that information is 
given. I am trying to think of my own experience. I don't think 
that I personally had a course, but I was directed to certain 
Web site material that is maintained that covers that material, 
which is obviously read and there are obviously certain 
statements and representations that you make generally when you 
come into the political appointee positions.
    But I think you are absolutely right that making this 
known--and that would be something that OPM, for example, for 
the Federal civilian work force, the Presidential appointees, 
would be happy to explore.
    Mr. Shays. I would just observe, Mr. Chairman, it strikes 
me that those employees, Members of Congress, whoever, who are 
playing on the edge and have been employed for a long time 
would probably have to think twice--it might make them think if 
they had been close to the edge that they might need to pull 
back a bit because of the risk of actually losing the one thing 
that they would probably count on to provide for----
    Ms. Springer. Well, I would say that if their spouse knew 
about it, that might add some pressure, too.
    Mr. Shays. Good point.
    I yield back.
    Chairman Tom Davis. Thank you.
    Mr. Souder.
    Mr. Souder. Thank you, Mr. Chairman.
    I have first a couple of technical questions. In the Hiss 
v. Hampton case, are you saying that, for example, in the case 
of Duke Cunningham, we cannot do something retroactively on his 
pension?
    Ms. Springer. I believe that is correct, yes.
    Mr. Souder. So the longer we wait, we may have a number of 
cases that could conceivably--that is interesting. I understand 
the legal concept, but it shows what is in front of us in our 
failure to act earlier and the need for fast action.
    Second, because I am just seeing the legislation and trying 
to absorb this, too, if an offense is only punishable by--it 
has to be imprisonment for a year or more. How do plea bargains 
affect this? In other words, does it have to be a conviction 
where the penalty is, if it is a plea bargain and the plea 
bargain isn't for a year or more?
    Ms. Springer. That wouldn't change it. If you are convicted 
for a crime that carries with it a penalty that could be 
imposed--could be, doesn't have to be. So even if it is less 
than a year, for some reason, or even if it was suspended or 
something like that, if that conviction of that particular 
crime carried with it potentially the opportunity to impose a 
sentence of more than a year, then it would apply. The pension 
would be forfeited.
    Mr. Souder. So the negotiated plea bargain would have to 
carry the offense of a year or more, not the original crime----
    Ms. Springer. No, the crime itself for which you were 
convicted.
    Mr. Souder. Another question I have, I was concerned about 
your statement where you separated that you believe clerical or 
administrative employees at a very modest salary should not be 
covered. Is that the administration's----
    Ms. Springer. No. Actually, what I said was that this would 
apply. If they are in any of the groups that are----
    Mr. Souder. No, what I mean is the implication is you don't 
think they should be covered. Is that the----
    Ms. Springer. No, no. No, I am just saying that--to just 
show that it is not just at the high levels, that it would 
include all levels of the pay range.
    Mr. Souder. Does the administration support this being 
broader than the bill is or----
    Ms. Springer. Well, we have financed a study to review the 
proposed act as it has been presented here, and we support it 
as it has been presented with this group.
    Mr. Souder. In the private sector--the spousal and family 
questions are interesting here. In the private sector, if 
someone--do you know of models in the private sector of how 
pension law works if somebody forfeits or does something, how 
it works with their family? Do they forfeit all their pension? 
Half their pension? What about if they leave the company?
    Ms. Springer. I don't know the answer to that, and there 
may be some precedent out there that we could study and find 
out for you. I don't know right off the top of my head the 
answer.
    Mr. Souder. In the current law as it relates to bribes, 
false statements, and espionage, do you know if that covers 
narcotics?
    Ms. Springer. No, it does not.
    Mr. Souder. So, for example, in Colombia, where we had the 
spouse of an embassy employee, we had certain people in our 
Government who were actually working with the cocaine 
traffickers, they wouldn't lose their pensions if convicted?
    Ms. Springer. I do not believe that the current law would 
cover that.
    OK. It is possible that if it involved something that is on 
that list, it may, but----
    Mr. Souder. But you are not sure whether narcotics--it 
would depend whether narcotics----
    Ms. Springer. Not narcotics in and of themselves, but if it 
is in connection with one of the security type of offenses that 
are listed under the current act, then it could be swept in 
just, you know, on that basis.
    Mr. Souder. In the US-VISIT program, where we had clear 
deals being made to accelerate people getting in outside--many 
from Saudi Arabia, which is one of the more flagrant 
violations, if they were on a terrorist watchlist, would that 
classify as a security risk, or do they have to actually have 
committed a terrorist act? And what about illegal immigration 
where it is not--where the link is difficult here? Because the 
penalty, I mean, if it has to be convicted of a crime where the 
penalty is more than 1 year, you could be basically letting 
people in on a watchlist who we have not been able to convict 
under US-VISIT, be convicted of that, but that may not be 
national security, so it would not impact your pension.
    Ms. Springer. Well, this particular bill that we are 
studying here does--you know, it obviously adds on to the Hiss 
bill. It doesn't, you know, take away anything in the Hiss 
bill. This bill talks about the actual conviction, as you say, 
carrying with it the penalty, potential penalty of a year or 
more. And that is the way this has been written, and beyond 
that scope, it might be something else that you would need to 
consider separately.
    Mr. Souder. Where I disagree with the implications of my 
friend and colleague from California, he implied that suddenly 
corruption came under this administration, which is laughable. 
We did not even raise the question here of Presidential 
pardons. But even so, we had multiple people in the last 
administration who clearly were lining up jobs while they were 
Government employees for Monica Lewinsky to silence a sex 
scandal, that the last administration had many of these 
problems, too. The question of corruption is broad, crosses 
parties, and needs to be addressed.
    One of the other problems we had in the last administration 
was Citizenship USA where there were many people brought in 
before the campaign, we had multiple hearings in the 
subcommittee that was then chaired by now-Speaker Dennis 
Hastert, where I was vice chairman, where they would take in 
7,000 forms at a time and you saw the same writing on the 
citizenship forms, and they were rushed through before the 
election. But under that criteria, right now that would not be 
a national security violation because citizenship questions 
wouldn't not be covered under current law unless we passed 
legislation like this that would apply.
    My understanding of what you said is that wouldn't be 
covered under current law, immigration fraud, or would it?
    Ms. Springer. No, it would not.
    Mr. Souder. Let me ask one other thing, because this is 
important as we look whether this needs to be broadened beyond 
elected officials. At our Southwest border, as we deal with 
difficult questions of narcotics, of coyotes who are running 
large groups of people, and people inside the Border Patrol, 
whether it be terrorist watchlists, whether it be narcotics, 
whether it be large groups of illegal immigrants, it is clear 
that occasionally they are penetrating our system. They are 
penetrating it at border crossings where there may be a 
cooperation when an agent comes on. There may be no look. I do 
not believe it is high in our Government, but it is fairly 
consistent. But under current law, these people could keep 
their pensions even if convicted.
    Ms. Springer. That is correct.
    Mr. Souder. This is a big problem. I am not sure how much 
of a deterrent it will be. I think it will be some deterrent. I 
am willing to look at some of the variations of this. But quite 
frankly, it is a justice question, as Congressman Shays said. 
Whether you are elected--it is especially egregious if you are 
an elected official, and we should be the first accountable. 
But anybody who is a public official who is put in trust of our 
borders, of our narcotics efforts, of the very citizenship of 
the United States, that you have an obligation not to take 
private deals to cooperate with people who are around that, and 
at the very least the taxpayers should not have to pay you a 
pension for the rest of your life if you are convicted.
    I yield back.
    Chairman Tom Davis. Thank you very much.
    Any other comments?
    Ms. Springer. No, we just look forward to continuing to 
work with the committee on this.
    Chairman Tom Davis. Thank you. Thank you, Mr. Souder for 
your questions.
    We will call our second panel now. We have Ms. Chellie 
Pingree, who is the president and chief executive officer of 
Common Cause, and Ms. Joan Claybrook, the president of Public 
Citizen. I want to thank you both for being here. Thanks for 
your patience.
    It is our policy that we swear witnesses before you 
testify, so if you would rise with me and raise your right 
hands.
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you very much.
    Ms. Claybrook, we will start with you. We have a light in 
front--your entire statements are part of the record. We have a 
light in front that turns green when you go on, orange after 4, 
red after 5. Try to stick as close to that as you can, but we 
want to make sure you get to make your salient points, too. So, 
Ms. Claybrook, we will start with you, and thank you for being 
with us.

 STATEMENTS OF JOAN CLAYBROOK, PRESIDENT, PUBLIC CITIZEN; AND 
CHELLIE PINGREE, PRESIDENT AND CHIEF EXECUTIVE OFFICER, COMMON 
                             CAUSE

                  STATEMENT OF JOAN CLAYBROOK

    Ms. Claybrook. Thank you very much, Mr. Chairman. I am 
pleased to be here to testify this morning on behalf of Public 
Citizen and our 150,000 members nationwide.
    The lobbying reform debate has largely focused on the 
lobbying and ethics as it applies to Congress. It is my 
understanding that the committee's discussion today really grew 
out of the Randy Cunningham case. We strongly welcome your 
initiative to deny pension benefits to Members of Congress, 
congressional employees, and executive branch political 
appointees guilty of crimes related to public corruption.
    But the debate on lobbying and ethics reform must go beyond 
that legislative proposal and beyond Congress. It must also 
include the ethical behavior of executive branch officials who 
become lobbyists and officers of companies they previously 
oversaw or regulated, and it should also address strengthening 
and monitoring the enforcement of the Ethics Reform Act for the 
executive branch.
    A few months ago, a report by 15 civic organizations, 
including Public Citizen, prepared a report called the 
Revolving Door Working Group, and here it is, and I would like 
to submit it for the record, if I could do so at your pleasure. 
I would like to submit this for the record. It is quite a 
comprehensive report.
    Chairman Tom Davis. Without objection, we will submit that 
for the record.
    Ms. Claybrook. It is called ``A Matter of Trust,'' and I 
think it could help the committee.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T6073.012
    
    [GRAPHIC] [TIFF OMITTED] T6073.013
    
    [GRAPHIC] [TIFF OMITTED] T6073.014
    
    [GRAPHIC] [TIFF OMITTED] T6073.015
    
    [GRAPHIC] [TIFF OMITTED] T6073.016
    
    [GRAPHIC] [TIFF OMITTED] T6073.017
    
    [GRAPHIC] [TIFF OMITTED] T6073.018
    
    [GRAPHIC] [TIFF OMITTED] T6073.019
    
    [GRAPHIC] [TIFF OMITTED] T6073.020
    
    [GRAPHIC] [TIFF OMITTED] T6073.021
    
    [GRAPHIC] [TIFF OMITTED] T6073.022
    
    [GRAPHIC] [TIFF OMITTED] T6073.023
    
    [GRAPHIC] [TIFF OMITTED] T6073.024
    
    [GRAPHIC] [TIFF OMITTED] T6073.025
    
    [GRAPHIC] [TIFF OMITTED] T6073.026
    
    [GRAPHIC] [TIFF OMITTED] T6073.027
    
    [GRAPHIC] [TIFF OMITTED] T6073.028
    
    [GRAPHIC] [TIFF OMITTED] T6073.029
    
    [GRAPHIC] [TIFF OMITTED] T6073.030
    
    [GRAPHIC] [TIFF OMITTED] T6073.031
    
    [GRAPHIC] [TIFF OMITTED] T6073.032
    
    [GRAPHIC] [TIFF OMITTED] T6073.033
    
    [GRAPHIC] [TIFF OMITTED] T6073.034
    
    [GRAPHIC] [TIFF OMITTED] T6073.035
    
    [GRAPHIC] [TIFF OMITTED] T6073.036
    
    [GRAPHIC] [TIFF OMITTED] T6073.037
    
    [GRAPHIC] [TIFF OMITTED] T6073.038
    
    [GRAPHIC] [TIFF OMITTED] T6073.039
    
    [GRAPHIC] [TIFF OMITTED] T6073.040
    
    [GRAPHIC] [TIFF OMITTED] T6073.041
    
    [GRAPHIC] [TIFF OMITTED] T6073.042
    
    [GRAPHIC] [TIFF OMITTED] T6073.043
    
    [GRAPHIC] [TIFF OMITTED] T6073.044
    
    [GRAPHIC] [TIFF OMITTED] T6073.045
    
    [GRAPHIC] [TIFF OMITTED] T6073.046
    
    [GRAPHIC] [TIFF OMITTED] T6073.047
    
    [GRAPHIC] [TIFF OMITTED] T6073.048
    
    [GRAPHIC] [TIFF OMITTED] T6073.049
    
    [GRAPHIC] [TIFF OMITTED] T6073.050
    
    [GRAPHIC] [TIFF OMITTED] T6073.051
    
    [GRAPHIC] [TIFF OMITTED] T6073.052
    
    [GRAPHIC] [TIFF OMITTED] T6073.053
    
    [GRAPHIC] [TIFF OMITTED] T6073.054
    
    [GRAPHIC] [TIFF OMITTED] T6073.055
    
    [GRAPHIC] [TIFF OMITTED] T6073.056
    
    [GRAPHIC] [TIFF OMITTED] T6073.057
    
    [GRAPHIC] [TIFF OMITTED] T6073.058
    
    [GRAPHIC] [TIFF OMITTED] T6073.059
    
    [GRAPHIC] [TIFF OMITTED] T6073.060
    
    [GRAPHIC] [TIFF OMITTED] T6073.061
    
    [GRAPHIC] [TIFF OMITTED] T6073.062
    
    [GRAPHIC] [TIFF OMITTED] T6073.063
    
    [GRAPHIC] [TIFF OMITTED] T6073.064
    
    [GRAPHIC] [TIFF OMITTED] T6073.065
    
    [GRAPHIC] [TIFF OMITTED] T6073.066
    
    [GRAPHIC] [TIFF OMITTED] T6073.067
    
    [GRAPHIC] [TIFF OMITTED] T6073.068
    
    [GRAPHIC] [TIFF OMITTED] T6073.069
    
    [GRAPHIC] [TIFF OMITTED] T6073.070
    
    [GRAPHIC] [TIFF OMITTED] T6073.071
    
    [GRAPHIC] [TIFF OMITTED] T6073.072
    
    [GRAPHIC] [TIFF OMITTED] T6073.073
    
    [GRAPHIC] [TIFF OMITTED] T6073.074
    
    [GRAPHIC] [TIFF OMITTED] T6073.075
    
    [GRAPHIC] [TIFF OMITTED] T6073.076
    
    [GRAPHIC] [TIFF OMITTED] T6073.077
    
    [GRAPHIC] [TIFF OMITTED] T6073.078
    
    [GRAPHIC] [TIFF OMITTED] T6073.079
    
    [GRAPHIC] [TIFF OMITTED] T6073.080
    
    [GRAPHIC] [TIFF OMITTED] T6073.081
    
    [GRAPHIC] [TIFF OMITTED] T6073.082
    
    [GRAPHIC] [TIFF OMITTED] T6073.083
    
    [GRAPHIC] [TIFF OMITTED] T6073.084
    
    [GRAPHIC] [TIFF OMITTED] T6073.085
    
    Ms. Claybrook. It shows at least two significant lobbying 
and ethics problems in the executive branch. One is the 
pervasive problem of the revolving door, by which executive 
branch officials rotate between public service and the private 
sector, typically working for the same companies that they 
previously regulated, granted contracts to, or considered the 
effects of legislation on.
    The second is the loose patchwork of enforcement 
responsibilities spread among many executive branch agencies 
and vesting in one agency--the Office of Government Ethics--as 
the primary police watchdog of ethics in the executive branch, 
OGE has been created more as an advisory partner to individual 
Government agencies in implementing the ethics standards.
    So first I would like to address the revolving door. In 
order to establish a sense of trust that Government officials 
are not trading Government contracts or regulations for 
lucrative private sector jobs, Federal law requires a 1-year 
``cooling-off'' period in which retiring public officials are 
not supposed to lobby their former colleagues in Government. 
Additional conflict-of-interest laws and regulations have 
extended similar cooling-off periods to retiring procurement 
officers to prevent them from immediately taking jobs with 
companies that have received Government contracts that the 
procurement officer had authority over.
    Specifically, ``very senior'' executive branch officials, 
those in Executive Schedules I and II salary ranges, are 
prohibited from appearing as a paid lobbyist before any 
political employee in the executive branch for 1 year. And 
``senior'' executive branch staff, those in Executive Schedule 
V and up, are prohibited for 1 year from appearing as lobbyists 
before their former agency or representing or advising a 
foreign government or foreign political party in lobbying 
matters.
    Unfortunately, the revolving door policy has two very 
significant weaknesses. First, it prohibits former Government 
officials from making direct lobbying contacts with their 
former colleagues. But it permits them to engage in other 
lobbying activity. Former officials are not prohibited from 
developing lobbying strategy, organizing the lobbying team, 
supervising lobbying efforts during the cooling-off period. In 
fact, retiring former officials frequently become registered 
lobbyists immediately on leaving the Government. They simply 
cannot pick up the telephone. That is all.
    Second, the scope of the cooling-off period that applies to 
Government contracting is so narrow that former procurement 
officers may now immediately accept employment with the same 
companies to whom they had issued contracts while in public 
service. Only employment within a specific division of a 
company is prohibited if that division was under the official's 
contracting authority, but not employment for the company 
itself. And this loophole, as we remember, allowed Darleen 
Druyun to land a well-paid position at Boeing after overseeing 
the company's bids on weapons programs for many years in her 
capacity as a Pentagon procurement official.
    The Center for Public Integrity surveyed how the revolving 
door has turned for the top 100 officers in the executive 
branch at the end of the Clinton administration and concluded 
that about a quarter of the senior-level administrators left 
public service for lobbying careers. Another quarter of the 
administrators accepted positions as directors of private 
businesses they had once regulated.
    For these issues we recommend the following: Expand the 
scope of the revolving door restrictions so that former 
officials are prohibited not only from conducting paid lobbying 
activity during the cooling-off period but the development and 
supervising of lobbying efforts.
    Two, expand the time period for the cooling-off period to 2 
years.
    Three, extend the cooling-off period to senior executive 
branch staff of Level V or higher policymakers involving 
contracts that now apply primarily to procurement officers.
    Four, close the loophole allowing former Government 
procurement employees to work for a different department or 
division of a contractor from the division that they oversaw as 
a Government employee, and the cooling-off period should apply 
governmentwide.
    And, five, when public officials discuss future employment 
that may pose a conflict of interest, the fact that the 
discussion is underway should be public information. If there 
is any potential conflict of interest, recusal from public 
officials affecting the potential employer should be mandatory 
unless a waiver from the conflict-of-interest rules is 
absolutely necessary. This relates, for example, to the Thomas 
Scully scandal.
    And then, second, with regard to the operation of the 
Office of Government Ethics, it operates more as an advisory 
partner in the executive branch rather than an enforcement 
watchdog. Responsibility for implementation of executive branch 
ethics laws and regulations is widely dispersed among executive 
agencies. And OGE has not served as an effective central 
clearinghouse for making public records on ethics matters 
readily available to Congress and the public.
    Although it is professionally staffed and independent from 
political operatives, OGE is far from an ideal agency. Its 
primary weakness is that it lacks enforcement authority. Its 
rules are not binding within the executive branch, but are 
subject to interpretation by ethics officers in each separate 
executive branch agency. While it has developed guidelines for 
granting waivers for employees from conflict-of-interest laws 
governing future employment, these are only guidelines. Each 
executive branch agency also promulgates its own waiver 
procedures, which are then interpreted and enforced by the 
specific ethics officer appointed within that office. As a 
result, there is not one set of procedures for seeking and 
receiving waivers from conflict-of-interest laws, and each set 
of waivers is interpreted differently by different officers.
    One of the granted waivers dealt with Thomas Scully, and my 
testimony details that.
    The resulting embarrassment prompted the White House in 
2004 to step in and issue an Executive order requiring that all 
waivers be reviewed by White House counsel. But this should be 
the responsibility of OGE, a more robust OGE, where decisions 
are more immune to political considerations.
    OGE has neglected to establish itself as an effective 
public information source as well. Though the agency compiles 
and scrutinizes previous Government records for scores of 
executive branch employees and appointees, it makes little 
effort to make these records available to the public. There is 
no OGE Web site that posts public records of prior employment, 
financial statements, conflict-of-interest waivers, or even 
enforcement actions. And when it comes to ethics records in the 
Federal Government, this type of information is not centralized 
and is exceedingly hard to secure.
    For the most part, OGE appears to be serving the interests 
of the executive branch, not the public and the Ethics in 
Government Act. Ironically, OGE has recently sought to weaken 
public disclosure of personal financial records of political 
employees. At the prodding of the White House and some 
congressional leaders, the OGE has been considering capping the 
reporting of personal wealth of senior executive branch 
officials at $2.5 million for disclosure, rather than the $50 
million cap that exists today, and allowing officials to omit 
the dates of major stock transactions from financial reports, 
which would make it difficult to tie Government actions to an 
employee's choices. Reducing disclosure is not the way to go.
    Thus, we recommend three things, and I will conclude with 
this, and I am sorry I took a little bit longer than your 5 
minutes.
    Given strong enforcement authority for OGE with the ability 
to promulgate rules and regulations that are binding on all 
executive branch agencies, conduct investigations, subpoena 
witnesses, and issue civil penalties for violations.
    Two, empowered as a central agency for implementing and 
monitoring its responsibilities.
    Three, be required to serve as the central clearing house 
for all public records relevant to ethics in the executive 
branch and place this information on its Web site.
    Thank you very much, Mr. Chairman. I appreciate the 
opportunity.
    [The prepared statement of Ms. Claybrook follows:]

    [GRAPHIC] [TIFF OMITTED] T6073.086
    
    [GRAPHIC] [TIFF OMITTED] T6073.087
    
    [GRAPHIC] [TIFF OMITTED] T6073.088
    
    [GRAPHIC] [TIFF OMITTED] T6073.089
    
    [GRAPHIC] [TIFF OMITTED] T6073.090
    
    [GRAPHIC] [TIFF OMITTED] T6073.091
    
    [GRAPHIC] [TIFF OMITTED] T6073.092
    
    Chairman Tom Davis. Thank you very much.
    Ms. Pingree, thank you for being with us.

                  STATEMENT OF CHELLIE PINGREE

    Ms. Pingree. Thank you very much.
    Chairman Davis, members of the committee, and particularly 
Representative Shays, who has worked very closely with Common 
Cause in the past, I appreciate this opportunity to testify 
before you and address some of the recent scandals that have 
been challenging Congress and the executive branch and give our 
suggestions about restoring the public's trust in Government.
    As you know, Common Cause has been active for 35 years on a 
nonpartisan basis, commenting on the issues of ethics and the 
influence of money in politics, and we find this a very 
critical time. As both Congressman Davis and Congressman Waxman 
mentioned in their earlier remarks, this is an enormous 
opportunity as the public reacts with great criticism toward 
the scandals that are evident every day and more and more 
Members of Congress are interested in finding ways to change 
the perspective and enforce real reform.
    We believe that vigorous enforcement of existing laws is 
critical to restoring trust, and legislation that makes clear 
that wrongdoing will not go unpunished is an important part of 
the solution to this problem. For this reason, Common Cause 
supports the Federal Pension Forfeiture Act. We believe this 
legislation that would deny Federal retirement benefits to 
Federal policy holders, including Members of Congress and their 
staffs, and political appointees in the executive branch who 
are convicted of crimes related to public corruption, crimes 
such as accepting bribes or defrauding the Federal Government, 
embezzling Federal property or falsifying Federal documents.
    Losing a pension to us appears as if it will be a deterrent 
to officials who may be considering action that betray the 
public trust. The retirement benefits that Members of Congress 
and high-level Federal employees are entitled to receive after 
they retire often are more than the average American earns 
annually from a full-time job. The fact that public servants 
who have seriously violated their duties to the public would be 
rewarded by a lifetime pension seems grossly unfair to average 
citizens. It seems particularly unfair when the majority of 
Americans can expect no pension when they retire and when 
corporations like Enron implode and deny millions of innocent 
workers their retirement savings.
    Passage of the Federal Pension Forfeiture Act is a good 
step in a multi-pronged effort to restore the public's faith in 
Government.
    While we do support this legislation, we believe that much 
more is needed.
    Common Cause is currently supporting an expansive reform 
agenda, dealing with Congress and lobbying, including such as 
issues as disclosure, gifts, travel ban, restrictions on 
lobbyists and lobbyists' fundraising, and tremendous increases 
in transparency, accountability, and disclosure.
    We also believe that House and Senate leaders of both 
parties should agree to establish an independent ethics 
commission with the power to accept complaints, investigate 
them, and make recommendations to the respective House and 
Senate Ethics Committees. And restoring, again, that public 
trust can only happen if the public has confidence that 
Congress is committed to cleaning up its own house.
    Within the jurisdiction of this committee, we would like to 
comment on a couple of other proposals before you, some of 
which my colleague, Joan, has already discussed. But we do 
appreciate the Chair's taking this opportunity to expand the 
jurisdiction of the committee and looking at as many ways as 
possible to restore the public faith.
    We agree the problem with the revolving door and the 
conflicts of interest when Government officials with serious 
responsibilities are looking to advance their careers in the 
public sector again has gotten out of control and is an 
important means of restoring faith in the public.
    We were all familiar, as mentioned earlier, with former 
Medicare Administrator Thomas Scully's effort to conceal the 
true cost of the President's Medicare prescription drug plan 
from Congress while negotiating for a job with private sector 
interests that would be favorably affected by this passage.
    Administrator Scully got a waiver from his agency to 
conduct these employment discussions, and since then, to its 
credit, as you heard, the administration has clamped down on 
the practice of granting waivers. However, the time may be ripe 
for even stricter rules, perhaps written into the law, that 
simply do not allow for waivers, period. Government and 
legislative employees should not be negotiating with 
prospective employers while they have a role in legislation or 
regulation that affects those same employers.
    Political cronyism is another concern of ours, and the 
appointment of political cronies is a problem that has infected 
both Democratic and Republican administrations. But the issue 
has come into much sharper focus recently.
    When the head of FEMA, the Federal Emergency Management 
Agency, turned out to have little prior experience in disaster 
preparedness, our ability to respond to Hurricane Katrina 
clearly was impaired. Unfortunately, Michael Brown's apparent 
political appointment is not the exception. Cronyism rears its 
head in other, less visible appointments to boards and 
commissions that affect our lives. Most recently, two 
appointees to the Corporation for Public Broadcasting, whose 
duty is to protect public television and public ratio from 
political interference, were major donors and partisans with no 
experience in public broadcasting. These appointees have helped 
jeopardize the editorial independence of public broadcasting at 
a time when the public needs fact-based investigative 
journalism more than ever before.
    Both Democratic and Republican administrations have been 
guilty of placing political supporters and major donors in 
Government jobs or on Government commissions.
    We support the proposals contained in the Anti-Cronyism and 
Public Safety Act that require a political appointee 
responsible for public safety to have superior credentials and 
experience that is relevant to the position for which he or she 
is being considered. We also believe that the candidate should 
be free of potential conflicts of interest that might arise 
from regulating a former employer.
    Let me mention a couple of others.
    All of our proposals, both in front of the issues that 
regard Congress and in the executive branch, suggest that 
greater disclosure is critical but currently insufficient. As 
we know, every day an army of lobbyists descends on Congress 
and various agencies of the Federal Government. Lobbying the 
Government has become a billion-dollar industry, but the public 
knows relatively little about what lobbyists are working on and 
almost nothing about who they are talking to.
    As Congress considers new lobbying rules in the wake of the 
Abramoff scandal, there are a number of common-sense reforms 
that would greatly improve the system and should apply to the 
executive branch as well.
    Another place that disclosure rules need to be tightened is 
privately funded travel for Federal officials. Federal ethics 
laws require travel disclosure reports of every executive 
agency. However, the Vice President's office insists that they 
do not have to inform the American people about the trips that 
are taken through them, the speeches that are made, or the 
special interests that the Vice President meets with.
    The Vice President contends that his office is not an 
executive agency and the disclosure rules don't apply because 
he does not make any trips that are privately funded. But 
according to the Center for Public Integrity, the Vice 
President has made more than 275 speeches and appearances, 
including 23 speeches to think tanks and trade groups and 16 
colleges. While the Vice President calls this travel ``official 
business'' and puts it on the public tab and not giving the 
public any information of whether these trips truly serve the 
public interest or were a good use of Government funds.
    Avoiding privately financed travel is a good practice in 
principle, but not if it is used as a strategy to keep the 
public in the dark about the office's comings and goings.
    We also want too talk a little bit about Government 
contract policies and procedures that have not been up to the 
task. And since my time is limited, I will just say that is yet 
another area of concern particularly raised in the wake of 
Katrina, relying on no-bid, sole-source contracts, and feel 
that there is much more concern about disclosure and 
accountability in that area.
    We want to thank again the committee for this opportunity 
to discuss increasing ethical conduct, the opportunities for 
transparency and accountability in the Federal Government, and 
we, too, look forward to working with you as you craft these 
legislative proposals and think about these issues seriously.
    Thank you very much.
    [The prepared statement of Ms. Pingree follows:]

    [GRAPHIC] [TIFF OMITTED] T6073.093
    
    [GRAPHIC] [TIFF OMITTED] T6073.094
    
    [GRAPHIC] [TIFF OMITTED] T6073.095
    
    [GRAPHIC] [TIFF OMITTED] T6073.096
    
    [GRAPHIC] [TIFF OMITTED] T6073.102
    
    [GRAPHIC] [TIFF OMITTED] T6073.103
    
    [GRAPHIC] [TIFF OMITTED] T6073.104
    
    Chairman Tom Davis. Thank you very much for your thoughtful 
testimony.
    Mr. Kirk, I am going to start questions with you.
    Mr. Kirk has a bill up that does much of the same thing. 
Really the differences on the legislation, which is narrowly 
crafted today, basically it is who it applies to and what the 
crimes are. Of course, reasonable people can disagree, and we 
are trying to figure it out.
    Mark, go ahead.
    Mr. Kirk. Thank you, Mr. Chairman, and thank you for 
agreeing to have a member of another committee here for a 
statement. Last year, I introduced a bill, H.R. 4535, the 
Congressional Integrity and Pension Forfeiture Act, which was 
cosponsored by 37 Members. It was based almost exclusively on 
Congressman Randy Tate's bill in the 104th Congress, H.R. 4011. 
That bill had 74 cosponsors. It was taken up and passed by the 
House of Representatives on September 22, 1996, by an 
overwhelming bipartisan vote of 391-32, with 1 present.
    I will note that the now-Speaker of the House, Dennis 
Hastert, voted for that legislation. The now-Minority Leader of 
the House Nancy Pelosi also voted for that legislation. For 
members of this committee, the vote broke out 16-3.
    That bill was patterned after legislation introduced by my 
predecessor, John Porter, during the 101st Congress in 1990. It 
was he who in the Illinois General Assembly passed legislation 
to deny a member of the General Assembly convicted of a felony 
of their Illinois State pension, which is now the law of our 
State.
    I think it is incumbent upon the Congress now to take this 
action because the Congress, by its very nature, is largely run 
by senior Members. Junior Members do not have the right to a 
pension. Senior Members have very large pensions. The beauty of 
this provision is that the penalties go up with seniority, and 
since they are the ones who run both majority and minority 
parties, the penalties fall most heavily on them.
    Chairman Tom Davis. Mark, the Members do not say that in 
their campaign literature.
    Mr. Kirk. That is right. [Laughter.]
    Chairman Tom Davis. The Members do not say they do not run 
the place. It is a rare admission.
    Mr. Kirk. I would also just recommend, on crimes that are 
covered, I am comfortable making the level of penalties on 
crimes higher on Members of Congress than anyone else because I 
think as lawmakers it is incumbent on us to set a higher 
standard and to be judged against a higher standard. And so 
while there are other proposals before this committee to deny 
pensions to all Federal employees that are convicted of a 
felony or to restrict the number of crimes that would affect a 
congressional pension, I would recommend that this committee 
follow the direction the Congress took in 1996 and have a very 
broad range of public crimes apply only to Members of Congress, 
denying their pension, because I think it is up to us to set a 
higher standard.
    Now, unfortunately, despite overwhelming bipartisan support 
in 1996, this legislation was killed by the Senate leaders of 
both sides in 1996. But the Senate leaders of 1996 are all gone 
now. We have entirely different leaders, both Republican and 
Democratic sides. And so my hope is this Congress can send back 
this common-sense legislation, which already overwhelmingly 
passed the House, set a higher standard for Members of Congress 
on a broad range of public crimes.
    I am very comfortable with that. I don't think we need to 
drag other Federal employees in it, but I think for this body, 
a higher standard is something that we should be very 
comfortable with.
    Mr. Chairman, thank you for that, and I yield back.
    Chairman Tom Davis. Thank you very much.
    Mr. Van Hollen.
    Mr. Van Hollen. Well, thank you, Mr. Chairman, for holding 
this hearing. Thank you to both our witnesses for being here, 
and thank you for your testimony.
    I want to just commend the chairman on introducing this 
piece of legislation and holding this hearing. But as he 
himself, I believe, said earlier--and I think we all 
acknowledge--the scope of the problem goes beyond this piece of 
legislation. I support this bill, but I think that if we are 
going to attack this issue of special influence in Washington 
and the influence of lobbying over legislation and the product 
that passes the Congress, we need to go way beyond that. You 
have addressed that, both of you, in your testimony as well.
    Indeed, Mr. Chairman, I hope this will be the first of a 
number of hearings where we begin to take some serious 
oversight over this general issue. Let me just mention, for 
example, many of my constituents who work for the Federal 
Government have felt that political pressure arising from 
special interests lobbying the administration has interfered 
with their ability to pass public policy in the public 
interest. And you can think of many examples where pressure has 
been put on scientists in the administration to change their 
judgments or to try and pressure them not to speak out.
    We just heard over the weekend--it was widely reported--
James Hansen at NASA said that he was pressured not to speak 
his mind on issues of global warming because it was not 
consistent with the Bush administration's policy.
    I participated in a forum over the weekend with Susan Wood, 
who used to be head of one of the public health divisions, 
women's public health over at FDA, who resigned in protest 
after an expert panel was overruled at the political level with 
respect to emergency contraceptives and Plan B.
    There are numerous examples, especially in the last 5 
years, of people's independent judgment being overruled as a 
result of political pressures brought by special interests, and 
I think it is very important that we look into those issues as 
a committee.
    With respect to lobbying reforms, I think many of the 
proposals you have made here are right on target, and I think 
we should have a gift ban, and I think we need to be very 
aggressive about this. The end result cannot just be window 
dressing. It cannot be an attempt here to create the perception 
among the American people that Congress has done something if, 
in fact, it has not done something, because that will just 
breed more cynicism, and people will lose even more confidence 
in the Congress and the administration and how we make public 
policy.
    If you could address what I really think is the nub of a 
lot of this issue, which is the whole question of the campaign 
finance system, and we don't need at this point to get into 
different campaign finance reform proposals, which I support 
many of them and I know that your organizations have been 
advocates, and I am a cosponsor of those. But just the nexus 
right now between lobbying and lobbyists for special interests 
and their role in the fundraising process, and whether or not 
you have any specific proposals aimed to address that issue.
    Ms. Claybrook. We do, and thank you for asking that 
question. We do believe that for both the Democratic and 
Republican--sorry. Thank you for asking that question, Mr. Van 
Hollen. We do believe that is a missing link in both the 
Democratic and Republican proposals that are now pending in the 
Congress, and that link, as we see it, is the link between 
money, lobbyists, and politics. And we have advocated--and I 
would like to submit for the record--while I realize it is not 
totally under the jurisdiction of this committee--the six 
benchmarks for lobbying reform that Common Cause, Public 
Citizen, and other groups have supported, and one of the key 
elements of that is not to have lobbyists be able to bundle 
money from Members of Congress, that is, to go collect it from 
a lot of other places and hand over a number of checks from 
various people; not to be treasurers or campaign officials for 
a Member of Congress; not to hold fundraising events or events 
that honor Members of Congress; not to hold events, for 
example, at the political conventions that are recognizing 
Members of Congress.
    So we believe that this nexus of the deep involvement, if 
you would, of lobbyists in the fundraising process for Members 
of Congress should be prohibited, and that is one step.
    We do support--and I know Chellie does as well because she 
has been a leader on this in the State of Maine, where she was 
a public official. We do believe that public funding of 
elections in the end is really the solution, and we support, of 
course, reform of the Presidential funding system. And I think 
that those kinds of proposals really deserve consideration now, 
now that we have had so many scandals and so many difficulties 
with this nexus between money, lobbyists, and politicians.
    Ms. Pingree. If I might just make a quick comment, and that 
is a very comprehensive look at exactly what both of our 
organizations are supporting.
    Two interesting facts. If you look at the most recent 
Washington Post survey, 57 percent of the public believes that 
all lobbying fundraising should be banned, so this is a very 
salient issue. People see the connection between lobbyists and 
Members of Congress as something they have deep concerns about. 
As Joan said, we are also enormous supporters of the idea of 
thinking now about congressional public financing and more and 
more conversations are revolving around this. I know 
Representative Shays just had to leave the room, but the 
Connecticut Legislature just passed public financing with 
bipartisan support from Republicans and Democrats. Maryland has 
a bill pending. So it is an issue that is being looked at in 
many States around the country. The California Legislature 
passed public financing in the House 2 days ago.
    So in the wake of all these scandals, while there are very 
discrete proposals that we have to deal with in this connection 
between lobbying and fundraising is important, this 
conversation will go on for a while and people will continue to 
look at their Members and say, ``So what are you doing in the 
long run to make sure that we break these ties and that we 
really change the system of money and its influence in the 
political process?''
    Mr. Van Hollen. Well, thank you for those comments, and I 
agree with you. And I hope as Congress reviews different 
proposals you will continue to hold its feet to the fire and be 
the judge of whether or not what comes out of Congress is 
window dressing or whether it is something that will make a 
real difference.
    I agree with you with respect to public financing. I am a 
cosponsor of a piece of legislation that has been introduced 
here. It did not get a lot of traction until recently. Now 
people are, fortunately, taking another look. But you know as 
well as I do that it will take an awful big push from the 
grass-roots level to pass campaign reform legislation through 
this body.
    When I was in the State legislature, we pushed for it in 
Maryland, and we still have a ways to go there. Other States, 
as you said, have since moved forward, which I think is a good 
thing. But I think that is ultimately the solution for ensuring 
that Members, elected Members, essentially owe their loyalty to 
the public and there is not a question raised in the public 
mind about whether or not there are other influences at work 
beyond just the commitment of public officials to the public 
interest. So let's work on all these fronts, and thank you for 
your work.
    Ms. Claybrook. Mr. Van Hollen, I would just like to say 
that it would be the best investment the taxpayer ever made. It 
is a cost of one B1 bomber to have public funding of elections 
for Members of Congress.
    Mr. Van Hollen. And, Mr. Chairman, just if I could, the key 
issue here--because when you poll people and you ask them of 
their priorities where does campaign finance reform rank, for 
example, it usually comes down pretty low. But above that you 
will find issues like health care reform and energy policy. The 
important thing is that the public understand that getting the 
foundation of our system right has a direct impact on the 
policies that we work on with respect to health care and 
energy.
    It is my view, for example, that the prescription drug bill 
that was passed--I think people are finding out, seniors now 
when they look at all the complications, that it wasn't written 
with them in mind. And certainly the prohibition on the Federal 
Government, you know, being able to negotiate prices on behalf 
of the taxpayer, that prohibition was certainly not in the 
public interest. And I think you see similar issues arising 
with the energy bill.
    So the public needs to understand the direct connection 
between getting our campaign finance system right, getting our 
foundation in order, and the impact that has on all these other 
big policies.
    Thank you.
    Chairman Tom Davis. Thank you.
    Let me just note that I come from Virginia, which is 
``anything goes'' in terms of campaign contributions, but 
transparency--and we have really no history of corruption or 
anything else within the State, but we do have complete 
transparency and you cannot raise money during legislative 
sessions and the like. So we could have a good discussion on 
this, and I don't think this is the time to do that. I will 
note on some of the lobbying reforms that you have advocated 
forever, that some Members--like Mr. Kirk had put his bill 
forward last year before this became a hot item. We have a 
short window of opportunity to act. And Mr. Waxman and I have 
sat down, and we would like to take advantage of this. We are 
not going to agree on everything, but we can work a lot of 
things out and move the ball down the field.
    We welcome your comments as we do this, your criticisms and 
everything else. We think it adds to it. But the public right 
now is beginning to get focused on these issues, and that gives 
us a rare opportunity, where generally this may rank 14th or 
15th, to move it to the top.
    So let's try to take advantage of it. We need to have an 
honest discussion. We are not going to agree on everything. I 
am certainly not going to agree on public financing. But let's 
have the--we ought to be able to talk about it and maybe close 
some things that ought to be closed and try to do some common-
sense things.
    Ms. Claybrook. I would certainly commend to you to look at 
some recommendations by a number of the same groups that are 
working on lobbying reform on the Presidential public funding 
system. That is a system that already exists. It is quite 
broken, and it really needs to be amended. And we would seek 
your help on that, Mr. Chairman.
    Chairman Tom Davis. Thank you. The big loophole we are 
getting to now is the court decisions that allow wealthy 
individuals to spend unlimited amounts. And if you did not have 
that, I think we could--some of these other items might make 
some sense. But you are getting into a point where people can 
spend vast amounts and there is no other way. But that is a 
discussion that we can have and try to deal with.
    On the legislation before us, I don't represent this as a 
cure-all at all. We saw this as something within our 
committee's jurisdiction that we can move quickly. It may or 
may not be attached to something else, but let's get a piece 
down, but Mr. Waxman and I have agreed that this is by a long 
ways not the end of what this committee will do and we hope not 
what the Congress will do. And he has listed some of the things 
in his opening statement about some of the areas that he wants 
to look at, and we have agreed to look at them. And I think in 
some cases, we will come to closure.
    Immediately, the legislation before us in the bill that I 
put forward, we don't include every Federal employee. We 
include people who are in policymaking positions for the most 
part, Schedule Cs. Now, some of these people don't have big 
pensions because they are not career, but some of them have 
gone in and out of Government over time, and the cumulative 
effect is fairly significant as well, and, of course, Congress, 
who is an elected body on that.
    As you heard Mr. Kirk, some would like to expand this 
across Government to everybody working for the Federal 
Government. We have had some discussions on whether you do 
that. Career civil servants, do you put their families out of 
their pension? Any thoughts on that?
    Ms. Claybrook. Well, I would like to look at his bill more 
carefully.
    Chairman Tom Davis. OK.
    Ms. Claybrook. I am an attorney, so I want to do that, and 
I would like to submit our comments. But, generally, my 
inclination would be to support a broader piece of legislation 
like Mr. Kirk's. I worked in the Federal Government for 16 
years. I started as a GS-5, so I know the capacity of 
individuals in the Federal Government to misbehave and I have 
seen it.
    Chairman Tom Davis. Sure.
    Ms. Claybrook. So I think that--I do believe it would be a 
deterrent if people thought they could lose their pension. Many 
people go to work for the Government and stay there because it 
does have a good pension system, and particularly in these days 
where pension systems now are hard to come by, it is probably 
even more important.
    So I would not be opposed to looking more broadly at what 
these penalties should be and who they should cover. I 
certainly think they should cover the SES positions. I am not 
sure whether the bill does that or not.
    Chairman Tom Davis. That is a good point.
    Ms. Claybrook. But I definitely think all political 
appointees and the SES positions. But I think probably more 
broadly.
    Chairman Tom Davis. All right. If you would like to submit 
anything else, we may move on this quickly, but we would be 
happy to have it.
    Ms. Pingree.
    Ms. Pingree. I would concur with Joan and just reinforce 
again the public perception from the outside of people who work 
for the Federal Government, who are Members of Congress, who 
basically, you know, work for all of us, having opportunities 
to keep their pension even if they do significant wrongdoing. 
So I do think it would be a deterrent effect. I thought your 
comment that it would be a prosecutorial tool was important, 
particularly at a time when there is a great need for access to 
information. And we see in the Abramoff issue where being able 
to have that information is extremely important to cleaning up 
what goes on behind the scenes that we often do not know about. 
So I thought that was an important point.
    And I don't know exactly what the legal issues are, but, 
again, I think perhaps it was Representative Shays who 
mentioned that as people come into these jobs, they need to be 
fully informed about the fact that there will be significant 
penalties if they do wrongdoing and attach those to every 
decision that they are making when they make those decisions. 
So I think we would support that.
    Chairman Tom Davis. OK. Thank you.
    I just had one other question. Ms. Claybrook, I am just 
confused about one thing. You suggested that OGE has sought to 
weaken public disclosure at the prodding of the White House. 
Was that fair?
    Ms. Claybrook. Well, no, it was the White House that took 
the initiative.
    Chairman Tom Davis. Right. The White House is prodding OGE 
to weaken these things.
    Ms. Claybrook. Yes.
    Chairman Tom Davis. But have they been successful in that?
    Ms. Claybrook. I don't know. I have not had the capacity 
to--
    Chairman Tom Davis. OK, because our hope is that OGE has 
been immune from political considerations. I mean, that is why 
it was created originally, and that is why I think we want to 
give them more authority in some of these areas.
    Ms. Claybrook. That is correct. We very strongly believe 
that OGE should have independent authority and that it should 
be as immune as possible from political considerations. 
Obviously, if you get a directive from the chief of staff at 
the White House, you are going to pay attention to it.
    Chairman Tom Davis. Of course you are, and there are 
political considerations in everything.
    Ms. Claybrook. That is right.
    Chairman Tom Davis. You do not have to be elected to have 
them. I would just add one other thing. There are going to be 
times when career people come up with a different conclusion 
than the elected administration.
    Ms. Claybrook. That is right.
    Chairman Tom Davis. And we have seen some of those issues, 
too. My feeling on that, though, is the administration should 
not be afraid to come forward and explain their position if it 
is at variance.
    Ms. Claybrook. Absolutely.
    Chairman Tom Davis. But there is nothing wrong with that, 
whether it is voting rights or whether it is on drugs. If it is 
a policy position, that is fine. But they should not be timid 
about sharing their information with Congress and coming 
forward and explaining it.
    Ms. Claybrook. That is correct. That happened to me as 
actually the Administrator of the National Highway Traffic 
Safety Administration, and John Dingell and I had quite a set-
to over this because one of my employees did not like airbags, 
and we had a public debate about it. And I supported airbags, 
and I think in the end having that public debate was just 
perfect.
    Chairman Tom Davis. It is never pretty, but it is 
democracy.
    Ms. Claybrook. That is right.
    Chairman Tom Davis. Again, the elected policymakers can 
overturn career people, but they should not be afraid of being 
able to come forward and explain it. And that is what--well, 
thank you very much.
    Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman. I regret 
that I was not here when these very important witnesses 
testified. I have had a chance to glance quickly at their 
testimony. I certainly wanted to be here when the OPM Director 
testified.
    A Member--and I don't recall his name--on the other side 
was saying as I entered that he thought that Members of 
Congress should be held to a higher standard. I must say that I 
have to agree. We, of course, passed legislation that said that 
at the very least Members ought to be held to the same standard 
as others. But, you know, isn't it amazing that it took us a 
long time to get to the point of saying that the laws that 
apply to everybody else, hey, guess what? They also apply to 
Members of Congress.
    Now that we have said that and now that we have this 
pervasive scandal, let's look to see who a Member of Congress 
is. And when it comes to matters of ethics and the fact that 
there are so few of us that these positions are so sought 
after, are the highest public trust, and particularly in light 
of the scandals before us, it is very hard to argue anything 
but set the example, not only raise the standard but say, look, 
they have a higher standard that applies to them than applies 
to the average American.
    I simply want to say, however that plays out--and we have 
to look closely at how that plays out, and indeed I have a 
question for you about how that plays out--I do think that is 
certainly the place to begin.
    I want to congratulate my good friend who has made the 
first hearing a hearing dealing with this egregious issue. Now, 
what he has done is to choose the most egregious case, the case 
that is mind-blowing to anyone who knows anything about it. But 
if I may say so, for that reason it is not the most urgent 
case. In some respects, it is the easiest case because you know 
you got to do something about that. If the lobbying can result 
in the consequences that we now know from the plea, then you 
certainly have to do something about that.
    I would have preferred--and I know it is early in the 
session, and that is why I am grateful that we have started, at 
least. I would have preferred--and I think there would have 
been a greater understanding, particularly of the public, if we 
said there are a whole bunch of things that are wrong, wrong 
with that Member, because everybody knows how unusual that is. 
And if they don't know, beware, Congress, because too many 
think that he is typical.
    One way to dispel that is say here is a whole flock of 
things we are going to do. So I am going to assume that my good 
friend, Tom Davis, who has taken the leadership here, first 
committee to come forward in this way, is having the first of a 
series of important hearings on this issue.
    I believe that the matter ranks so low, as my colleague 
here from Maryland said, because we have failed to make the 
nexus between the issues that affect the American people and 
lobbying. So we talk about lobbying. Who could care less what 
happens in Washington? And maybe it is difficult to make that 
nexus, but not if we begin to talk more about the issues that 
we know have been determined exclusively by lobbying money. 
And, of course, the best and prime example is the great hopes 
of seniors that have been dashed by the Medicare prescription 
drug program. Not only is it indefensibly complicated, but now 
it is so full of holes that they cannot even work their way 
through it because there is yet a whole new set of problems 
that have just erupted. We have to do better on that.
    I would like to just ask a question. When I look at these 
things, I tend to look at them legislatively and more 
technically. One of the things I find most difficult, because 
it is hard for me to see what difference it has made, is the 
notion of, you know, 1 year or 2 years that you do not get to 
lobby.
    Now, in, I guess, the Common Cause testimony, to show just 
how difficult this is, in your explanation of the revolving 
door, you understand that people have to have a right to 
practice an occupation, so you say slow the revolving door. But 
to show how hard it is, in your explanation you say--and here I 
am quoting from your testimony--``Expanding the definition of 
lobbying will capture those Members of Congress who join 
lobbying/law firms and who do not register as lobbyists, but 
who share their invaluable experience they have had as elected 
officials with lobbyists in the firm.'' I find that a very 
difficult matter to deal with. You know, on the face of it, it 
seems to have free association and free speech implications. I 
don't even know how in the world you would enforce it. And I am 
bothered by it.
    At the same time, I cannot tell the difference between 1 
and 2 years. So it would help me if you have anything further 
to say, because the rest of the things you say under that I 
hope we do immediately, like eliminate floor privileges, deal 
with negotiation for employment contracts, prohibit lobbyists 
from being the treasurers, etc., but when it comes to, OK, you 
can't even talk to, you can't share your experience, I don't 
know how that can survive constitutional muster, much as I am 
attracted to it. I would just like to hear you, perhaps you 
have views on why you think that is constitutional or why that 
would work, or why it would be, for that matter, enforceable?
    Ms. Pingree. Thank you, and I am happy to attempt to answer 
that question, and, again, Public Citizen has been doing a lot 
of work on this issue of the revolving door.
    I would say that for most of the reform groups we have been 
trying to address, two concerns. One is to extend the period of 
time--and you raise a good question, you know, will 1-year be 
different from 2-year? We feel that it represents a greater 
deterrent from this notion that people serve as Members of 
Congress, looking forward to an opportunity to both parlay that 
influence into a high-paying job, and maybe are making 
decisions based on their time in Congress that will be affected 
by the future employment, so I think we are trying to extend 
that period, and talking about it in the executive branch as 
well.
    I think the second point that you have raised, that perhaps 
will be heard, to actually regulate, is this concern that there 
are former Members of Congress or the executive branch who 
actually go to work in large lobbying--large law firms that 
have a significant lobbying presence. So they may have the 
opportunity to direct lobbying activities, to work on 
strategies and political thinking, yet they may never appear on 
the floor or be seen in these halls. But their influence and 
the significance of that influence may be much greater than we 
are able to assess based on whether or not they are here in the 
hallways.
    Ms. Norton. Yes. We may have reached the limit of what we 
can prohibit, is my problem with that.
    Ms. Pingree. And you may well be raising an important 
point, but it is really one of the most frequently mentioned 
proposals because I think people are deeply concerned about 
what is going on behind--
    Ms. Norton. That same Member could go and teach at 
Georgetown Law School and say the very same things, and then 
the lobbyists could simply register for his course. And people 
do that, they do teach part time. I am just not sure about 
that, and I am not sure, as much as I want to do something 
about this problem, that I could--because I think it is 
unconstitutional on its face, not just as applied, not to 
mention all kinds of problems about attorney-client problems. 
The reason I ask it is I am befuddled by the 1 and 2-year, and 
I see the problem there, and therefore respect your notion of 
trying to get to something that is more meaningful. To me, in a 
real sense, it points up the difficulty of trying to do 
something other than the yearly matter.
    I am sorry. Ms. Claybrook did want to answer.
    Ms. Claybrook. Could I comment on that, Mr. Chairman, for 
just a second?
    First of all, I understand your concern about the 
constitutional issues. The reason that we favor this type of 
proposal is because the intent of the current law that you not 
lobby for 1 year after you leave the Congress has been 
completely undermined by Members of Congress being paid multi-
bucks to go to either a lobby firm or law firm, and they set up 
shop as the director of the issue. Maybe Mr. Tauzin would be a 
good example, where behind the scenes, is directing the 
lobbyists, telling them what to do, which Members of Congress 
to contact, what issues that they care about. And so he is 
essentially the lobbyist without actually making the telephone 
calls.
    Everyone knows that Tauzin's lobbyists are coming to talk 
to them, and they are bringing a message from Mr. Tauzin, for 
example. And he is not the only one. Believe me, I am not 
picking just on Mr. Tauzin.
    So the question is whether or not Members of Congress can 
sell themselves to these entities, these law firms and lobbying 
shops, as the director, working on particular issues where they 
have intimate knowledge and intimate contacts that is 
essentially selling the public trust. And it is a balancing 
act. It is a balancing issue.
    I would prefer that they not be able to work for 5 years in 
these kind of jobs, if you ask me personally, because there are 
plenty of things Members of Congress are talented to do, and 
they don't have to become Washington lobbyists in order to make 
a living. I think it has perverted the system and undermined 
the whole process of legislation. So I would apply a much 
tougher standard in terms of the number of years, and I think 
that you would admit that there's a difference between 1 year 
and 5 years in terms of whether Members of Congress are still 
here and their staffs are still here, and do they have the same 
relationships?
    But in terms of directing and controlling the strategy or 
laying out the strategy for other lobbyists to affect 
legislation on their behalf, hopefully there is some way that 
we can write that would pass constitutional muster with you, as 
a great lawyer, and the courts, so that there would be some 
distance, if you would, between Members of Congress and 
lobbying on issues that they work on.
    Chairman Tom Davis. Thank you.
    Mr. Shays.
    Mr. Shays. I think this issue is pretty straightforward. It 
is just something that needs to happen. Though you all in your 
testimony have obviously gone beyond this issue, and so I will 
seize the opportunity to talk about that. Both of you would ban 
gifts entirely?
    Ms. Claybrook. Yes.
    Ms. Pingree. Yes.
    Mr. Shays. What I wrestle with in terms of trips, tell me 
what trips you would allow?
    Ms. Claybrook. We would allow?
    Mr. Shays. Yes.
    Ms. Claybrook. Well, that is an interesting issue that I 
think our collective judgment has not yet made--sorted out.
    Mr. Shays. I am not asking you to be collective. I am 
asking each of you to talk as independent thinking people. What 
would you allow?
    Ms. Claybrook. We haven't had the kind of conversations 
that would allow us to sort it out, but I am going to tell 
you----
    Mr. Shays. I don't understand the word ``we.'' I am asking 
you.
    Ms. Claybrook. We at Public Citizen, we at Public Citizen.
    Mr. Shays. OK.
    Ms. Claybrook. I believe that if a Member of Congress is 
doing the public business, the public treasury ought to pay for 
that trip. And the one issue that has been raised in the Senate 
to us has been whether or not nonprofit organizations, and not 
the ones that are front groups for lobbyists, but educational 
institutions, for example, should be allowed to pay the travel 
for a Member of Congress to, say, make a graduation speech. And 
that----
    Mr. Shays. I am wrestling with these things. I am 
interrupting you. I am sorry. But I am not quite sure where you 
are really coming down.
    Ms. Claybrook. Well, I don't know either on that particular 
issue.
    Mr. Shays. Let's just ask a question----
    Ms. Claybrook. On that narrow issue I would say all other 
travel that is on the public----
    Mr. Shays. What I am wondering is, as I wrestle with this, 
are we going to do something that ends up being superficial in 
the process of trying to look like we are doing something, and 
really not getting at the issue. I mean it seems so clear to 
me. If you go on a trip to Scotland to play golf at all the 
best courses, and they are spending thousands of dollars just 
for the fees on the golf course, I mean, that is like a no-
brainer, it shouldn't happen.
    Ms. Claybrook. Right.
    Mr. Shays. But I am thinking if I am invited to give a 
speech to a group from APAC in Miami, should that be allowed? 
That is a question.
    Ms. Claybrook. I am not sure who APAC is, I am sorry.
    Mr. Shays. Well, any group. I will just use APAC.
    Ms. Claybrook. Any group that is a business group or a 
lobby group, absolutely not. I believe that----
    Mr. Shays. Let me ask you this: if I going to raise money 
in Miami, how do I pay for that if it ends up being the same 
kind of group?
    Ms. Claybrook. Out of your campaign fund.
    Mr. Shays. But then what is the difference? I mean, with 
all due respect, they gave you the money and they put it in 
your campaign. There is no way that I think we are going to 
want to say to someone that the only way they can raise money 
is in their district. I mean that is easy for me. If everybody 
in Round Hill Road in Greenwich, CT gave me a contribution, I 
could run for President. But what does someone do in a very 
poor district? What does someone do when they are the spokesman 
on a particular group? If my opponent, for instance, goes to 
every law firm in the district to raise money, is she also 
allowed to go to every law firm outside the district, and why 
not? If I am the champion of tort reform, and the law community 
doesn't want to support me at all, but the medical community 
does, why wouldn't I want to, and why wouldn't it be logical 
that a group in Miami or Chicago or somewhere else would want 
to contribute to my campaign, and why wouldn't I go to a 
fundraiser?
    I particularly think of Senators. Senators go all over the 
country doing this and----
    Ms. Claybrook. Well, they can. They just have to pay for 
it. It should be paid for out of the campaign fund.
    Mr. Shays. Then just tell me how is that any different? You 
got the campaign dollars from the very group that you went to 
do the fundraiser with.
    Ms. Claybrook. That is right, but----
    Mr. Shays. What is the difference?
    Ms. Claybrook. I think that there is a difference, because 
if you get it directly from the medical association or whatever 
it is that wants to bring you in, and then they are going to 
raise big bucks for you, then you are getting it from them and 
they are paying for your money, and I know that it counts in 
terms of your campaign funds, but I still think that it----
    Mr. Shays. What happens if that same medical community 
invited me to give a speech about something I believe in, and 
only paid for my travel, only paid for my hotel and maybe paid 
for the dinner that night? How is that any different? I don't 
see the difference. That is what I wrestle with. What I also 
wonder about is, think of the causes you believe in, and I 
believe in your causes; you are basically saying to me that I 
can't go and speak and rally the Nation for campaign finance 
reform, which I believe in, that I am stuck in my district. The 
only way I can go outside to rally people on something like 
campaign finance reform is if I do a fundraiser.
    Ms. Claybrook. No, no, no. I am not saying that. I am 
saying that if you are doing the public's businesses, then the 
public should pay for it. It should come out of the Federal 
treasury, out of----
    Mr. Shays. So you are saying that if I want to go to San 
Francisco to talk about campaign finance reform, I have to--and 
where do I get the money from? What fund do I get it from here?
    Ms. Claybrook. I believe there should be a congressional 
fund to pay for the travel. I would far rather that you travel 
every day and have the public pay for it if that is what the 
Congress agrees to, if there is some system for deciding who 
gets that, the allocation of those funds, than to have it paid 
for by private business. I think that is the harm, because once 
you say that is OK, then it extends----
    Mr. Shays. I think that is a consistent policy. I mean I 
could argue that. That is almost like saying that the 
Government pays for your campaign. But you would take that same 
analogy and say, I would take it out of, basically out of my 
office expenses if I wanted to travel to give a speech.
    Ms. Claybrook. But I think there ought to be a larger fund 
that is put together, whether it is allocated by Members of 
Congress, by a committee, maybe a combination of both, that is 
who pays for your travel. And you report it publicly, and you 
report on what you did and said. That is publicly available 
very quickly. Then I think the public could live with that.
    Mr. Shays. Let me ask Common Cause what they think.
    Ms. Pingree. I thought you made an important thought when 
you started off this conversation, and I think it does get to 
the heart of what is going to be a plethora of conversations 
about what is real reform here, because, as everyone has 
stated, there is going to be a kind of rush to pass a variety 
of fixes on what is perceived as corruption here in Washington. 
The danger is, I think, going after things that are too small 
and aren't appropriate fixes, and creating an even more complex 
system of what you can and can't do. So I do think you are 
addressing an appropriate concern, and in a way it requires us 
all to back up.
    And of course, that is why organizations like ours--and 
certainly you have been a champion of this in the past--talk 
about until we end the nexus between money and politics, and 
until we really talk about public financing for congressional 
offices, there will always be this question: were you at that 
meeting, or did you go on that trip, or were you at that lunch, 
so that someone could have closer access to you and an unfair 
advantage?
    Mr. Shays. Let me just ask this last question because I 
have run out. When I was invited to speak to the League of 
Women Voters in Florida with Marty Meehan, I want you to tell 
me how I would get there?
    Ms. Pingree. Well, I mean, I think Joan makes a perfectly 
good point. We have to talk about separating this because it is 
the whole issue around travel.
    Mr. Shays. So just answer the question. So how would I pay?
    Ms. Pingree. We should have a public fund. You should pay 
for it. It should be an important part of your job, expanding 
both who you are able to speak to and what you are able to view 
around the world.
    Mr. Shays. Fair enough.
    Ms. Pingree. We have to change the system.
    Mr. Shays. Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you.
    Mr. Waxman.
    Mr. Waxman. I want to thank both of you very much for your 
presentation to us. I am pleased that you are here because it 
expands the perspective of this issue from the bill that we 
have before us, which is to deny pensions to people who are 
convicted of crime, certain people if they are convicted.
    I think what we need is honesty. We need honest leaders and 
we need open Government. An open Government is very important 
to keep people honest. I often wonder, when I hear about a 
colleague doing something that is so outrageous, taking a 
bribe, you wonder, what was this person thinking? Well, most 
people who commit crimes think no one will know about it.
    One of the problems I see is that under current law, only 
the lobbyists, not the officials they lobby, are required to 
make disclosure about the fact that they are lobbying, and a 
lot of them don't bother. We don't enforce that law. I saw 
somewhere that there was something like 80 percent of people 
who lobby don't bother to live up to the lobbying laws that are 
on the books now. It seems to me that there is a lack of 
accountability regarding lobbyists in the executive branch. 
Don't you think it would make more sense for people who are 
being lobbied to have to disclose the fact that they were 
lobbied and the subject matter? There is nothing wrong with it, 
by the way. I think lobbyists serve a very important purpose. 
They represent different interest groups, and we don't want to 
pass legislation without getting all the input and views of 
various groups.
    I think back to the time when Vice President Cheney chaired 
an energy task force to come up with a proposal for 
legislation. He wouldn't even hear from people that would tell 
him what the President said last night, which is our country is 
addicted to oil and we need to break that addiction. One of the 
ways of breaking addiction is to be more efficient in the use 
of oil. His view, he stated publicly, was, it is virtuous, but 
it is not a good policy.
    Well, I hope the President's views last night will become 
the policy for this country. Let's be more efficient in the use 
of energy. Let's make sure we look for alternatives. Let's wean 
ourselves off this addiction.
    But if we wanted to look at who the Vice President was 
hearing from as he did this official job of trying to develop 
an energy policy for the administration, it seems to me a 
realistic question to ask is: what groups did you hear from? 
What did they ask you about? He took such offense at that 
question that he went to the U.S. Supreme Court to argue that 
he didn't have to disclose such information. Do you think there 
ought to be a requirement that people who are lobbied in the 
executive branch have to have a disclosure of the fact they 
have been lobbied and what position was being advanced?
    Ms. Claybrook. I do. As a public official, my calendar was 
public. I believe that the calendars of public officials ought 
to be clear and public. From time to time Public Citizen has 
seen some problems and we have asked for calendars and we have 
been turned down. In other cases we have gotten them. But I 
think there ought to be a clear rule, that is, that the 
calendar of public officials should be a public calendar.
    Mr. Waxman. Is that subject to FOIA, Freedom of Information 
Act?
    Ms. Claybrook. It is, but there have been different 
rulings. At this moment I can't remember them all, but in some 
case I know we have gotten the calendars and in others we 
haven't. I would be glad to submit a memo to you on our 
understanding that the current law, under the Freedom of 
Information Act, is one of our specialties at Public Citizen, 
and I will be happy to give that to you. But I do believe that 
the law ought to be clear, and that when public officials have 
meetings, they ought to be public, not that everyone ought to 
be able to join them and come--surely they can have private 
meetings, but I think that who was at the meeting and what the 
subject matter of the meeting was about should be public.
    We also have this fight with the Office of Management and 
Budget. It's been from time to time, every time we raise a big 
stink about it, then every once in a while they say, John 
Graham said, ``Oh, we're going to have a public process,'' and 
then of course it wasn't a public process after the hullabaloo 
died down. I would like to have a clear rule in the law.
    Mr. Waxman. I think open Government is very important, and 
one of the problems that I am seeing is that this 
administration is restricting the release of information under 
the Freedom of Information Act. They sent out mandates to 
agencies to stretch FOIA exemptions to withhold, ``sensitive'' 
information. Now, there is noting in the law that says you can 
withhold information that is sensitive. They even came up with 
some pseudo classification designations such as, ``sensitive 
but unclassified.'' Now, if it is classified and you are 
revealing national security matters, well, I think all of us 
would agree that shouldn't be disclosed to the public. But if 
it is classified as ``sensitive but unclassified'' to avoid 
disclosure, it seems to me this administration is going out of 
its way to figure out how to undermine openness in Government.
    Ms. Claybrook. I agree with that, Mr. Waxman. I would like 
to mention one other thing though.
    Mr. Waxman. Just because I see my yellow light, I am just 
going to suggest to you that I would appreciate if you look at 
the law that I propose called the Restore Open Government Act, 
H.R. 2331. I would be interested in having your opinions on 
that legislation. And then I just quickly want to touch one 
other thing.
    I think that when we have people like Tom Scully, who was 
representing the administration--he got a waiver to go out and 
negotiate a job with companies that represented the 
pharmaceutical industry while he was negotiating the Medicare 
Prescription Drug Bill. You mentioned Billy Tauzin. It wasn't 
that he went to work as a lobbyist for the drug companies. What 
offended me was that while he was negotiating the bill relating 
to Medicare, he was in obvious conflict of interest because he 
was working on the legislation and doing things that benefited 
the pharmaceutical industry.
    Now, I just think that sort of thing has to be tightened 
up. We shouldn't allow people to be in a conflict of interest 
situation. Part of it is to have openness, but I don't think 
the administration ought to give waivers to a guy like Tom 
Scully, and I think that we can't even reach--this is a 
violation of the ethics for Congressman Tauzin, but there is 
nothing we can do to him because he is gone. Now he is making 
$2 million a year at the chief person at the Pharmaceutical 
Manufacturers Association [PhRMA].
    So I just raise these issues. Appreciate your input on 
them, and I think that we need to do more than this piece of 
legislation. We need to look at it in a broader way.
    Ms. Claybrook. We certainly agree that the ethics--that the 
waivers for conflicts of interest ought to be very narrow and 
very unusual.
    I just want to comment on the Freedom of Information Act. 
One of the things that is undermining the Freedom of 
Information Act today, and I believe it is within the 
jurisdiction of this committee, is the issue of attorneys fees. 
When the law was originally amended in 1974, it included 
attorneys fees. Now, under some very unusual court decisions, 
you can only get attorneys fees if you get a clear win in the 
case. But if you are like 90 percent through the case and the 
Government comes in and negotiates and says, ``We are going to 
give you all the documents now,'' because they realize they are 
going to lose, you don't get attorneys fees. I think that 
perversion of the original intent of the law really has 
undermined the likelihood that people will bring these cases. 
We would love to have a small amendment in whatever bills that 
you do in terms of public disclosure, to rather encourage 
people to raise issues. You don't always win, and you don't 
always get your attorneys fees, but you are much more likely to 
if the Government concedes, whether they concede because the 
court made it the final ruling or whether the Government 
conceded because it gave in.
    Mr. Waxman. We ought to reward people who try to get 
information, and not punish whistleblowers who try to disclose 
information. I think those two concepts should both fit within 
legislation that is in the jurisdiction of this committee.
    Thank you.
    Chairman Tom Davis. Thank you very much.
    Mr. McHenry, you have any questions?
    Mr. McHenry. Thank you, Mr. Chairman.
    The question I have for both of you is that we are 
imperfect in the laws that we have in this Nation, and no 
matter the set of laws that we put out governing lobbying and 
ethics in Government, there will always be a criminal element 
that will try to find a way around those laws.
    For instance, in the matter of Duke Cunningham. The 
disclosure forms that we as Members of Congress fill out, there 
is one exemption, and that is your home mortgage. Now, it is 
very unique that you have to disclose whether or not you have a 
savings account that has $4 in it, you have to disclose the 
institution it is in. You have to disclose the amount of 
interest you derive from that $4 through the course of a year. 
But you can have a mortgage for a home, or no mortgage at all, 
and an enormously expensive home. So the question I have for 
you, are you coming forward with a sunshine proposal, rather 
than simple restrictions to just provide the public with more 
information?
    Ms. Pingree. Well, I would address that in two ways. I 
think you're correct that just providing a variety of new rules 
won't necessarily stop first criminal behavior, and then maybe 
behavior that's of questionable ethics.
    I mean two of the things that we've focused on, 
particularly in the broader perspective of Congress, but also 
in some ways affecting the executive branch, are a tremendous 
amount more disclosure and information available to the public 
about the people who in fact work for them, so that the 
information is more readily available, and people can make 
those judgments on their own.
    But the second part, that I think would have a significant 
effect, again, when people are intent on breaking the law--you 
know, whatever system you're working in, you can't stop someone 
from breaking the law--but it's been very clear in terms of the 
ethics process here in Congress, there's been very lax 
enforcement, and in many of these cases, as was mentioned 
earlier, many of those who were already regulated aren't 
bothering to fill out travel disclosures, gift disclosures, all 
the things that should have been done, and it's obviously gone 
to a much deeper level.
    We propose an independent ethics commission, which is 
employed in over 30 States around the country, to have a level 
of outside complaints, to have a level of higher disclosure and 
enforcement, and we just think it's an important juncture here. 
While people are looking at their deep concerns about whether 
there is, you know, outrageous amounts of corruption here in 
Washington, but on the other hand, is the fox guarding the hen 
house, and is the job being well done? So we think, again, to 
restore confidence, there has to be an independent ethics 
commission and it has to have very strict guidelines about how 
it brings these concerns to light.
    Mr. McHenry. OK.
    Ms. Claybrook. If I were you, I would, if you were pushing 
this, I would cite James Madison in the Federalist Paper No. 
57, because what he says is that the purpose of every 
constitution is not only to have the best rulers, but, he says, 
in the next place take the most effectual precautions for 
keeping them virtuous while they continue to hold the public 
trust.
    And I think that's the issue really that we have raised 
with regard to the Office of Government Ethics here in this 
hearing today, and also with the lobbying----
    Mr. McHenry. I have two other questions, so I want to keep 
moving forward if we could. Is the timing of a contribution an 
evil?
    Ms. Pingree. Well, it certainly can be associated with an 
evil, as some of the people who are currently under indictment 
would suggest. And I think that it raises, again, public 
perception and questions about whether the timing of a 
contribution was related to a decision that a policymaker made. 
And no one can be free of those questions, and the more 
opportunities you have to either regulate that process, allow 
more disclosure of that process, or prohibit it, the better off 
lawmakers will be.
    Mr. McHenry. OK. Ms. Claybrook.
    Ms. Claybrook. That's a very difficult question, but, yes, 
there are times when you can say a Member of Congress got a 
contribution just before or after they introduced a bill, they 
voted on a particular piece of legislation that's very 
controversial, yes, you could say that.
    I don't think that it's the most important issue. I think 
that the most important issue to me is that there be very clear 
rules about how you can behave. Obviously, today you can accept 
campaign contributions. We believe the public funding of 
elections would end a lot of this. Even free TV would cut down 
the burden on Members to have to do the money machine 
fundraising constantly, and would help to solve this problem.
    Mr. McHenry. It is interesting, the inconsistency here, 
because also lobbying. You say that a 1-year addition to the 1-
year ban on Members going and lobbying would cut down on 
corruption, yet you say you have to fully ban money in 
politics, so why not fully ban lobbying?
    Ms. Claybrook. Well, the Constitution won't allow that, and 
you're not going to ban money. What you're going to do is 
you're going to give Members of Congress an opportunity, under 
the public funding bills, to opt in, to take public funding so 
they don't have to take private money. There will have to be 
some kind of an initial screening device, small contributions 
or petitions or something to qualify for public funding, but 
it's an option for the Member of Congress, it's not mandated.
    Mr. McHenry. OK. Because there are many of us that believe 
that both lobbying and money in politics have the element of 
free speech, and that full disclosure is what we should be all 
about, rather than simple limitations, because when you put 
those arbitrary limitations, you create other problems that are 
unintended, and I think we are dealing with some of those here 
in Washington, just as we were 20 years before with similar 
public corruption issues.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you.
    Ms. Watson, any questions?
    Ms. Watson. I will pass.
    Chairman Tom Davis. Mr. Clay, any questions?
    Mr. Clay. I will be very brief, Mr. Chairman.
    Let me ask both of the witnesses. We have heard a lot of 
proposals come forward about reform. However, I have not heard 
anyone mention the practice--I guess it is a little-known 
practice--of lobbyists giving to, say, the DCCC and the RNCC in 
the name of a Member, and giving that Member credit for, say, a 
$5,000, $10,000 contribution. Don't you think that practice 
also kind of allows for a cozy relationship, allows for 
favoritism? I would like to hear both of your thoughts about 
that. Has anyone looked at that and suggested any kind of 
reform to that practice?
    Ms. Pingree. Again, I think it's why we're such staunch 
supporters of changing to a system of public financing of 
elections, because one of the things, as you've rightly 
observed, is in spite of a tremendous amount of reform to the 
system of soft money and in terms of more disclosure, there are 
always those who will find a way around the back door and 
another way to make sure that you're allowed to use a certain 
amount of money to influence a Member and a Member's decision. 
And at its very core, that's what we're trying to get it.
    In effect, although I know that people often feel we're 
placing a burden on elected officials, in a sense we're trying 
to relieve this burden of any of these questions. You know, did 
you get the contribution the day before you took the vote? Did 
the money go to the party instead of you, but they called you 
up and said, ``Oh, by the way, I put some money in the party?'' 
I mean these are things that, frankly, you shouldn't have 
questioned about the behavior and the decisions that any of you 
make. The fact that there is so much resistance about this 
sometimes shocks me because the ability to be an elected 
official and never have to wonder whether people will suspect 
that you got the money because some organization feels that 
you're a good supporter of theirs, or you got the money because 
they were counting on you doing something after you got the 
money. I just think is something we should eliminate the 
process, and there is no better time than now.
    Ms. Claybrook. Ditto.
    Mr. Clay. Has anyone brought that subject up in the form of 
legislation? Has anyone proposed eliminating that practice?
    Ms. Claybrook. Well, as far as I know it's not an 
authorized practice. It's a back door, you know, wink and nod 
informal communication, so it's kind of hard to prohibit that. 
So I believe it's a very informal thing because it's not, as 
far as I know, something that's a matter of record. I know it 
happens.
    Mr. Clay. Perhaps you all should look again because you 
will find that both congressional campaign committees give 
credit to Members, because they direct a lobbyist to put money 
into those committees, and the Member gets credit for it. So I 
mean that is just--I think it is an oversight that all of your 
groups have missed and you may want to take a look at it.
    Ms. Claybrook. OK.
    Ms. Pingree. Thank you for that.
    Mr. Clay. Thank you, Mr. Chairman. I yield back the balance 
of my time.
    Mr. Shays [presiding]. Thank the gentleman.
    Ms. Watson, I think you are next.
    Ms. Watson. Thank you. I would like to tell the two 
panelists that we appreciate you coming because you represent 
the public trust. I found myself being elected into a culture 
of corruption, and I have been very agitated by it throughout 
my term. Have the two of you looked at the ethics laws already 
on the books? And what I feel is that we as a Congress have 
abdicated our responsibility, because we have very few 
oversight hearings. We have very few whistleblowers to come in 
and testify. And it seems like we have bypassed what I feel are 
offenses that should be brought to the public's attention. For 
instance, we have not held an ethics hearing since both parties 
sat down and negotiated its composition.
    So can you respond to this question: are there not adequate 
provisions already in law that will cover whatever offense that 
might come about by Members, or do we need new legislation? I 
know we are talking about the forfeiture of public pensions. 
That is certainly a new area. But are there not enough 
provisions, but they lack compliance? Can you respond?
    Ms. Claybrook. I will speak first. I know Chellie has some 
very strong thoughts on this as well.
    First of all, in the Senate, an outside party is allowed to 
file a complaint with the Ethics Committee. In the House that's 
been prohibited. We used to be able to. We now cannot. And as a 
result, the two parties find themselves in a position where if 
a Member of Congress files an ethics complaint against a Member 
of the other party--rarely do they do it to a Member of their 
own party--then it becomes a game of warfare, and then they're 
filing complaints against the other party. And so what happened 
was, that after all of the hullabaloo over--in the late 1990's, 
what happened was that they came to a deal, we won't file a 
complaint against you, you don't file a complaint against us, 
because it's like nuclear war.
    And I think that's been a terrible result. And so a major 
thing that we think is that outside parties should be able to 
file complaints in the Ethics Committee.
    But more importantly, or as importantly as that, we see the 
Ethics Committee as totally disabled and unable to enforce the 
law, and we think there ought to be an outside independent 
office of public integrity or commission that is not staffed by 
Members of Congress or their staff, that can do the independent 
prosecutorial work when a complaint is filed, and either clear 
it or pursue it. And until that happens, there will never be a 
clear ethics process because there's not a clear ethics 
enforcement process.
    Today we testified that we also believe that the office of 
public integrity, or Office of Government Ethics, rather, in 
the executive branch, which does not have enforcement 
authority, should have enforcement authority, and that's one of 
the reasons that we were asked to testify today, and that they 
ought to be staffed to do that, and that this should not be 
delegated as it is now within each individual Government agency 
setting its own ethics rules, essentially, and doing its own 
enforcement or not, which is mostly what happens.
    Ms. Pingree. And I would just followup, a little bit of a 
yes and no. Yes, there are quite a few rules that were never 
enforced, and Joan's made that very clear, and why we think 
there should be some outside level of enforcement and enhanced 
enforcement, and there are some areas where we've suggested 
more rules, in the areas of disclosure and restrictions of 
lobbyists. And whether it's complicated or not, Congress has to 
look at the gift and travel ban. You know, the Washington Post 
said 90 percent of the American public wants to eliminate all 
gifts. People are--these have become high profile issues, and 
while they're sticky to understand at the very bottom level of 
what's appropriate travel and what's not, this has to be delved 
into.
    But I want to just enforce again this issue of who--is the 
fox guarding the hen house? Has there been a good job done? And 
when you lose the confidence of the public, you have to 
consider a different system to restore that confidence.
    Again, we have talked to many executive directors and 
agencies in the States where they have independent ethics 
commissions, they have ways to deal with frivolous complaints, 
they have ways to make sure that the Members have final 
authority, but that there is outside complaints and outside 
investigations. It seems to me, again, in the end, that Members 
do themselves a disservice not having a way to have these 
things enforced, so that when something isn't a problem, people 
are immediately cleared, and when something is a problem, that 
person doesn't continue to bring shame on the body.
    Ms. Watson. My staff and I have been quite concerned, and 
so we have looked at the ethics process, and we are drawing up 
some provisions, and we will discuss them once we get them 
drawn up. But one would be that any complaint that is filed 
must be heard within a given amount of time. So that all 
complaints are heard. Now, they might not need to be heard in a 
full committee, but I would think the chair and the ranking 
member ought to decide which are frivolous and which should go 
forward, and that we need to put a time limit on it.
    I am looking at starting at that point, using the 
provisions that are already in law, and so I am in a quandary 
right now because I don't know, but I like this idea of an 
outside commission, because I represent Los Angeles. I am on 
the West Coast. It takes 5 hours to get there by plane. So most 
often people don't have the details regarding the processes 
here in Congress. They look at the polls, and say, ``Well, 
you're no better than they are.'' We all get tainted and 
painted with a brush when we have Members selling their homes 
and reaping the profit, and living on yachts, and going 
together to play golf, and representing that private interest 
back here. We all get tainted because they don't feel any 
better about Congress than they do about other divisions of 
Government.
    So what is the best way to do it? I think an independent 
outside commission needs to come there because it is going to 
be like this as long as we have a two-party system, we are 
going to find--yes, I will just finish my sentence--as long as 
we have a two-party system there is going to be resistance to 
bringing your own up to ethics.
    So thank you for that recommendation.
    Ms. Claybrook. I would just like to clarify that because 
the Constitution requires the House to judge itself, or each 
body to judge itself, the Ethics Committee would not be 
abolished, but rather, you would have the outside commission 
would process all of the complaints and whatever, do the 
investigation and recommend penalties. It would have to go back 
to the Ethic Committee in the end, but they wouldn't do that 
nitty-gritty everyday work.
    Chairman Tom Davis [presiding]. OK. Thank you very much.
    Mrs. Maloney.
    Mrs. Maloney. Thank you, Mr. Chairman.
    I would like to welcome our two panelists and thank them 
for their hard work for the public trust and for good 
Government, and we appreciate all that you do.
    Clearly, taking trips to play golf is an outrageous abuse 
of position and power and lobbying, and it should absolutely be 
stopped. But in my own life I have worked as a lobbyist, as a 
volunteer for Common Cause, a former State issues chair for New 
York State, and professionally for the New York City Board of 
Education, and I truly believed in what I was lobbying for, and 
felt that I played an important role in educating legislators 
who are really spread too thin. You have to really be an expert 
on so many things that you are voting on, and I think it is 
important that you can explain education, you can explain good 
Government laws, and they need that help.
    Now, I would like to ask a specific question about 
educational travel, and I think my colleague, Chris Shays, 
started down this thing. There is an institute. It is a 
nonprofit bipartisan institute called the Aspen Institute. I 
have never been on one of their trips. But my colleagues tell 
me that they have learned a great deal. What they do is they 
will go a certain site, and they have a theme. It is either 
health care or education or the environment or energy, and they 
bring in a panel of experts in a nonpartisan way to explain the 
depth of understanding. They have had them on many, many 
different areas. My colleagues have told me that the trips have 
helped them understand complex issues. And every issue, you can 
look at it and say, this is right, that is wrong. You start 
looking at it, there is always complexities. There are nuances, 
that you may vote a certain way and it has ramifications that 
you didn't realize on various areas of our economy and of our 
constituency.
    And they think that these trips are very, very helpful for 
their understanding and coming up with good policy.
    I think that we need to have a good balance. We want to 
take out anything that is not working for the good 
understanding. I think, obviously, some of the abuses that have 
come out are just sickening. I can't imagine why any Member of 
Congress would even want to go on these trips, first of all. 
Second, how in the world do they have enough time with all of 
the pressures that we have on us?
    So I wanted to ask a question specifically about the Aspen 
Institute. I would like to crack down on abuses of lobbying, 
but I do not want to crack down on the ability of Congress 
Members to learn and understand and make better judgments, and 
I would like both panelists to respond to that.
    Ms. Pingree. I think you've, again, brought up a very 
important consideration. The value of both this committee 
having this hearing and what I imagine will be a variety of 
other conversations that will continue to go on, is it gives us 
the opportunity the dig in a little deeper about how you 
regulate travel in the case of golf trips to Scotland that 
don't pass the straight-face test and look bad in the eyes of 
the public, and how you make sure that this very important role 
of educating a Member of Congress on the things that they would 
like to and need to know more about is still allowed to 
continue, and whether it becomes, you know, strictly a public 
fund that Member has to spend, or if there is some middle 
ground, I think is a conversation that we're happy to be a part 
of.
    Now, some people have proposed that in the case of the 
Aspen Institute--and I'm very familiar with the work that they 
do--that travel be allowed by organizations that are 
educational in purpose or 501(c)(3)'s by their IRS designation, 
which would include the Aspen Institute. But in fact, some of 
the money that Jack Abramoff funneled for travel was to 
501(c)(3) organizations, in theory doing educational purposes. 
So the question becomes, how do we decide how to regulate this 
in a way that's appropriate and not overly restrictive, but 
that doesn't allow for these tremendous loopholes.
    I want to add one other quick point--and I've mentioned 
this story before--I was formerly a State legislator myself, 
and had the opportunity to do a certain amount of travel on 
trips sponsored by 501(c)(3) organizations. And on the one 
hand, they can have a great stated purpose, and many times they 
did--they had educational seminars and they had interesting 
places that we were visiting where there were things that we 
were learning, but I must say at the same time, half of the 
people in the room were working as commercial lobbyists. They 
were working for Verizon, or Citibank or a variety of other 
interests, and we spent 3 days together, not only learning a 
few things, but attending the symphony and perhaps going 
golfing or whatever was provided on the trip. And it gave a 
somewhat unreasonable amount of access to Members of the 
legislature, and perhaps got back to this question that we've 
asked before about were there future campaign contributions 
tied to relationships? Were they able to lobby us in ways that 
the general public or other advocacy lobbyists like Public 
Citizen or Common Cause aren't able to do?
    So there have been proposals that say that maybe it's about 
how these are done by 501(c)(3). Maybe you can't have trips 
where lobbyists are arranging them or attending the trip. I 
think there's a lot of questions to be asked, and I don't think 
we have a definitive answer today, but we appreciate the 
dialog.
    Ms. Claybrook. I would just like to say that I believe 
there ought to be a public fund. This is something that's 
important for Members of Congress to go to. They're going to 
add expertise from their own experience. They're going to learn 
from others. And I think that there is a public fund--there 
should be a public fund that pays for this. This is something 
that Members of Congress should have paid for.
    If you are an employee of the executive branch, as I was 
for many years, and you believe that there is an important trip 
that you have to take, you have a process that you clear it 
through and then it's paid for by the public. You have to be 
compensated based on certain schedules for how much you can pay 
for a hotel and how much you can pay for the airfare and so on. 
And I think that's the way that it ought to work.
    Poor people don't have luxurious conferences at the Aspen 
Institute. I've been at some of them. I think that they're 
wonderful. But, you know, I don't think that--if you start 
making that exception, then you're going to have, you know, 
other exceptions, and you're going to have these front group 
501(c)(3)'s that have popped up all over the place by business, 
and I just think that for fairness for the public, that it 
ought to be a public fund. You decide how you want to spend 
that public fund as a Member of Congress. You disclose it and 
you justify it.
    Mrs. Maloney. May I followup with a question, Mr. Chairman? 
My time is up, but----
    Chairman Tom Davis. Sure.
    Mrs. Maloney. Quite frankly, I would support public funding 
of elections, and I supported it when we had a surplus, but 
there is no way we are going to have public funding of 
elections with the economy that we have and the deficit that we 
have. I don't think that there is any way we would be able to 
create a public fund for educational purposes.
    Now there is official travel, but there is usually an 
official purpose, Iraq, Afghanistan, trade agreements in 
Australia, the Davos Economic Conference. There are official 
duties of Members of Congress where I think if you don't go to 
the country you don't really understand it, and you are voting 
on huge matters. So I support travel. But there is a difference 
between official travel that you are there for a specific 
purpose, and second, educational travel, where you are just 
going to learn more about an issue. And I personally do not 
think that in our budget situation, they would ever create a 
special fund for travel.
    I just read in the paper today that Coretta Scott King 
received 60 honorary doctorates, and I would like to followup 
on the question of my colleague, who has been a great leader of 
reform in this body, Christopher Shays, who worked tirelessly 
for years for campaign finance reform. And he was asking about 
educational institutions. Say, for example, if some university 
wanted to give our chairman, Tom Davis, a honorary degree, and 
they wanted to pay for him to come and get the honorary degree. 
And he has a tough election, so he's not going to pay for it 
out of--you can't pay for it out of your campaign.
    If you were doing official business or something related to 
your job, you cannot use campaign funds. There is a very strict 
division. You cannot use campaign funds except for campaigns. 
People contribute to have you reelected. You can't use it to go 
to an educational conference or to go to get an honorary 
degree, because they did not give you that money for that 
purpose, that was for campaigns.
    So there are some situations--and I am all for knocking 
down on influence of abuse of power on elected bodies, but 
there are some situations where that legislator may be a better 
legislator because of having attended a conference that they 
understood the energy policies and the complexities, or the 
education or the health care in a deeper form. And I would like 
to throw that question back.
    Chairman Tom Davis. Will the gentlelady yield for just a 
second? I also note the problem is if Government pays for 
everything, you get what Government wants you to see. You are 
never going to get a trip to the ANWR, given the current line-
up, to go up and look at the negative side, if you don't get an 
environmental group to pay for it. You will get the Government 
coming up there showing you what they want to show you. If you 
want to go to Mexico or Central America and see the effects of 
free trade, the AFL-CIO ought to be entitled to take you down 
there and give you their perspective. If you want the 
Government perspective, you get the Government line.
    I think there is some utility here, and I just throw that 
out. I don't know how we are going to deal with it, because, 
clearly, the trips got out of hand, but those are the kinds of 
issues I think Mrs. Maloney is trying to get at.
    Mrs. Maloney. Mr. Chairman, I thank you. I thought you were 
going to make a joke about getting the honorary doctorate. 
[Laughter.]
    Chairman Tom Davis. Well, I don't think Amherst is going to 
give me--I earned it the first time, but I don't meet the 
litmus test. [Laughter.]
    Mrs. Maloney. I would like to followup on the chairman's 
comments because I am in several disagreements with the current 
administration on ANWR, on United Nations family planning, and 
other areas where we have votes literally on the floor on these 
issues. And in terms of the United Nations Population Fund, I 
attended a conference in South America that was paid by a not-
for-profit on international family planning. In other words, 
that would have been--you understand what I am saying--ANWR 
would have been cutoff. So when you are taking a position in 
opposition to the ruling Government, there would be no way for 
you to learn the other side. Quite frankly, I was invited to 
several conferences in Canada on campaign finance reform, that 
was at one time in opposition to the administration.
    Chairman Tom Davis. Well, let's get this--you want to react 
to that?
    Ms. Claybrook. I would just like to say that I'm not 
suggesting that the executive branch decide where you're 
supposed to go, nor do I suggest that the leaders in Congress 
decide where you should go. I think that the fund should be one 
that's allocated to the Member of Congress to make that 
decision. And they can't do everything, so they're going to 
have to make certain decisions. And if your preference is to go 
to South America or up to ANWR or to the Mexican border, then 
that would be your decision, and that's the way I think the 
fund ought to be allocated. Plus there already are some 
committee funds that are allocated to Members of Congress to 
take trips. And so that's the way I would see it.
    I think that having a public fund frees you from all of 
these other problems that you are experiencing now, and really 
hurts the public trust. While I understand the need for 
education institutions and organizations like the Aspen 
Institute, perhaps we ought to have you--I still think that's 
something that's a part of your job, and you're a public 
official. I think it ought to be paid for by the public purse, 
and I think it's the best investment that the taxpayer would 
ever make. And by the way, it's one B-1 bomber for public 
funding for the U.S. Congress every other year, and I think 
that's a pretty cheap price, and I would do it any day of the 
week, rather than have--we wouldn't have the deficit that we 
have now because Members of Congress wouldn't be able to waste 
the money that they do.
    Ms. Pingree. I'll just add a couple of quick thoughts, 
because, again, as I said, this is an important part of the 
dialog between understanding what's appropriate and what could 
be financed. I appreciate the concerns that you raised, and I, 
again, just want to reinforce that I do think travel is 
important for Members, and I think expanding your horizons is 
important.
    But the other sort of bigger picture question, which I 
think is the reason that you're all here today and there's so 
much attention, is what is it going to take to restore public 
trust in Congress? I, again, don't think we're done here. I 
think this is going to go on because it's a campaign cycle, and 
because there's going to be more indictments.
    And so the question becomes, I think of all of you, what 
will you be willing to do to restore that faith again? It's not 
as if anybody wanted to be in this situation or somehow we 
think a gift ban will bring it all back together again. But it 
may in fact be worth the investment of taxpayer dollars to 
spend on a travel fund or to have public financing.
    I just want to say, I know we're all quick to discount how 
hard it is to use public money for these things, but the 
Connecticut Legislature, with a Republican Governor and 
Democrats, just passed public financing. The House in 
California just passed public financing. And these things are 
going to keep happening. So when the States and the public is 
ahead of the rest of the elected officials, I think sometimes 
you have to look behind and say, wait a minute, they might be 
more ready than we think, and we shouldn't discount that.
    Chairman Tom Davis. Thank you.
    Mrs. Maloney. My last comment. Congressmen Meehan and 
Pelosi have really developed a bill, and they are introducing 
it today, and I would like very much to hear your comments, and 
I am sure the committee would on those two pieces of 
legislation.
    Chairman Tom Davis. Thank you very much.
    Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman.
    I apologize with coming in late, and also to run off to 
another commitment, but I do want to first thank you for your 
leadership on this issue as we work to promote greater 
confidence and trust in Congress, in the Federal Government in 
general, and specifically with your legislation of the Federal 
Pension Forfeiture Act. I know that our colleague, Congressman 
Kirk, was here earlier, and I have been working with Mark on 
the legislation that is similar in some ways to your 
legislation, different in some ways, and specifically different 
about the specific crimes that would be included, and we 
certainly look forward to working with you as you move this 
legislation forward to address the breadth of individuals who 
should be held accountable for wrongful conduct, Members of 
Congress, as well as executive political appointees, but also 
the crimes that are relevant to their forfeiture of their 
pensions.
    On the broader issue, I certainly appreciate both of our 
witnesses here. Your efforts and your organizations' efforts 
focusing on good Government, and your input today, appreciate 
the written testimony. I think this is an issue that is 
integral to everything we do in Washington. As I say, having 
the public's trust is critical to us being able to address 
serious issues facing our Nation and people believing that the 
actions we took were truly in their best interest and not in 
the interest of a special interest. So restoring trust cuts 
across all issues out there, and the efforts of your 
organizations and the chairman's leadership hopefully will have 
success and move very favorably in the right direction.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Any other questions? If not, anything 
else you would like to add?
    Ms. Claybrook. Thank you very much for the opportunity to 
testify.
    Chairman Tom Davis. Well, we very much appreciate it. We 
want to, at least this committee, keep you a part of the dialog 
as we move forward. If you have any additional thoughts you 
would like to share with us, I will be happy to make it part of 
the hearing.
    The hearing is adjourned.
    [Whereupon, at 12:37 p.m., the committee was adjourned.]
    [The prepared statements of Hon. Todd Russell Platts, 
Elijah E. Cummings, and Hon. Jon C. Porter follow:]

[GRAPHIC] [TIFF OMITTED] T6073.097

[GRAPHIC] [TIFF OMITTED] T6073.098

[GRAPHIC] [TIFF OMITTED] T6073.099

[GRAPHIC] [TIFF OMITTED] T6073.100

[GRAPHIC] [TIFF OMITTED] T6073.101

[GRAPHIC] [TIFF OMITTED] T6073.105

[GRAPHIC] [TIFF OMITTED] T6073.106

[GRAPHIC] [TIFF OMITTED] T6073.107

[GRAPHIC] [TIFF OMITTED] T6073.108

[GRAPHIC] [TIFF OMITTED] T6073.109

[GRAPHIC] [TIFF OMITTED] T6073.110

[GRAPHIC] [TIFF OMITTED] T6073.111

                                 <all>

</pre></body></html>
